<html>
<title> - BUILDING BRIDGES BETWEEN VA AND COMMUNITY ORGANIZATIONS TO SUPPORT VETERANS AND FAMILIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                      BUILDING BRIDGES BETWEEN VA

                      AND COMMUNITY ORGANIZATIONS

                    TO SUPPORT VETERANS AND FAMILIES

=======================================================================


                                HEARING

                               before the

                         SUBCOMMITTEE ON HEALTH

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2012

                               __________

                           Serial No. 112-45

                               __________

       Printed for the use of the Committee on Veterans' Affairs





                  U.S. GOVERNMENT PRINTING OFFICE
73-290                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                         SUBCOMMITTEE ON HEALTH

                ANN MARIE BUERKLE, New York, Chairwoman

CLIFF STEARNS, Florida               MICHAEL H. MICHAUD, Maine, Ranking
GUS M. BILIRAKIS, Florida            CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              SILVESTRE REYES, Texas
DAN BENISHEK, Michigan               RUSS CARNAHAN, Missouri
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           February 27, 2012

                                                                   Page
Building Bridges between VA and Community Organizations to 
  Support Veterans and Families..................................     1

                           OPENING STATEMENTS

Chairwoman Ann Marie Buerkle.....................................     1
    Prepared statement of Chairwoman Buerkle.....................    39
Hon. Michael H. Michaud, Ranking Democratic Member...............     2
    Prepared statement of Congressman Michaud....................    39
Hon. Silvestre Reyes, Democratic Member, prepared statement only.    40

                               WITNESSES

Andrew Davis, Veteran, Director, Saratoga County Veterans Service 
  Agency, Saratoga County, New York..............................     3
    Prepared statement of Mr. Davis..............................    40
Chaplain John J. Morris, Joint Force Headquarters Chaplain, 
  Minnesota National Guard.......................................    13
    Prepared statement of Chaplain Morris........................    43
Shelley MacDermid Wadsworth, Ph.D., Director, Military Family 
  Research Institute, Purdue University..........................    15
    Prepared statement of Ms. MacDermid Wadsworth................    46
M. David Rudd, Ph.D., ABPP, Dean, College of Social and 
  Behavioral Sciences, Scientific Director, National Center for 
  Veteran Studies, University of Utah............................    17
    Prepared statement of Mr. Rudd...............................    49
George Ake III, Ph.D., Assistant Professor of Medical Psychology, 
  Duke University, American Psychological Association............    19
    Prepared statement of Mr. Ake................................    51
Rev. E. Terri LaVelle, Director, Center for Faith-based and 
  Neighborhood Partnerships, Office of the Secretary, U.S. 
  Department of Veterans Affairs.................................    29
    Prepared statement of Rev. LaVelle...........................    54
Chaplain Michael McCoy, Sr., Associate Director, National 
  Chaplain Center, Veterans Health Administration, U.S. 
  Department of Veterans Affairs.................................    31
    Prepared statement of Chaplain McCoy.........................    56

                       SUBMISSION FOR THE RECORD

Consortium for Citizens with Disabilities, Veterans, and Military 
  Families Task Force............................................    58

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:

  Questions from Hon. Michael H. Michaud, Ranking Democratic 
    Member, Subcommittee on Health, Committee on Veterans' 
    Affairs to Honorable Eric K. Shinseki, Secretary, U.S. 
    Department of Veterans Affairs...............................    63
  Responses from Hon. Eric K. Shinseki, Secretary, U.S. 
    Department of Veterans Affairs to Honorable Michael H. 
    Michaud, Ranking Democratic Member, Subcommittee on Health, 
    Committee on Veterans' Affairs...............................    64


                      BUILDING BRIDGES BETWEEN VA



                      AND COMMUNITY ORGANIZATIONS

                    TO SUPPORT VETERANS AND FAMILIES

                              ----------                              


                       MONDAY, FEBRUARY 27, 2012

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                    Subcommittee on Health,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 4:02 p.m., in 
Room 334, Cannon House Office Building, Hon. Ann Marie Buerkle 
[Chairwoman of the Subcommittee] presiding.

    Present: Representatives Buerkle, Roe, Runyan, Michaud, 
Reyes, and Donnelly.

    Also Present: Representative Walz.

            OPENING STATEMENT OF ANN MARIE BUERKLE, 
               CHAIRWOMAN, SUBCOMMITTEE ON HEALTH

    Ms. Buerkle. Good afternoon, and thank you all for being 
here this afternoon.
    Before we would begin, I would like to ask unanimous 
consent--although I don't see him here yet, for our colleague, 
Mr. Tim Walz from Minnesota, to sit at the dais and participate 
in today's proceeding.
    Without objection, so ordered.
    Today, we meet to discuss the role of faith-based and 
community providers in helping servicemembers, veterans, and 
their families transition from active duty to civilian life and 
the need to foster better communication, education, and 
collaboration between the Department of Veterans Affairs and 
these critical community resources.
    The responsibility for each one of us to care for those who 
have borne the battle has never been so strong with the brutal 
toll of a decade of war and a bad economy. We continue to hear 
stories of veterans from past conflicts and our recently 
returning veterans from Iraq and Afghanistan struggling to find 
a home, a job, or a helping hand. The need to meet these 
honored heroes where they are and provide them the care, the 
hope, and the help they earned has never felt so immediate.
    As a Nation, we are uniquely blessed to live in a country 
with a rich history of civic pride and responsibility, and it 
is to these communities where our veterans return home, where 
they have maintained their existing relationships, and, more 
often than not, where they first turn for help.
    While the primary responsibility for caring for our 
veterans does and should lie with the VA, faith-based and 
community groups are playing an increasingly key role in 
supporting the varied needs of our servicemembers, veterans, 
and their families. They act as a bridge to accessing Federal, 
State, and local programs and services.
    Members of the clergy in particular are often the first 
point of contact with the veteran grappling with the wounds of 
war. Data from the VA National Chaplain Center indicates that 
four out of ten individuals with mental health challenges seek 
clergy assistance, more than any other mental health providers 
combined.
    We already know that faith-based and community groups can 
be effective in filling known gaps in VA care and supporting 
the day-to-day needs of a veteran population. However, a 
district symposium I held in my home district of Syracuse last 
December revealed to me a shameful lack of communication, 
collaboration, and coordination between the VA and these 
critical community resources and, subsequently, an urgent need 
to act to establish meaningful partnerships between the VA and 
nongovernmental organizations.
    With more of our servicemembers returning home each day, we 
cannot afford to let any opportunity to better support our 
veterans pass us by. Where partnerships exist, they need to be 
strengthened. Where they don't, they need to be fostered. For a 
veteran or a loved one in need, every door should be an open 
door.
    Again, I thank all of you for joining us this afternoon. I 
look forward to a productive and ongoing conversation.
    I now recognize our Ranking Member, Mr. Michaud, for any 
remarks he might have.
    [The prepared statement of Ann Marie Buerkle appears on p. 
39.]

         OPENING STATEMENT OF HON. MICHAEL H. MICHAUD, 
                   RANKING DEMOCRATIC MEMBER

    Mr. Michaud. Thank you very much, Madam Chair.
    I, too, would like to thank everyone for attending today's 
hearing.
    This hearing is intended to open up the broader thought 
process and better understanding on how the VA and community 
organizations collaborate to support veterans and their 
families.
    More than 2 million servicemembers have been deployed since 
September of 2001, with hundreds of thousands of them being 
deployed more than once. As of February 2012, more than 6,000 
troops have been killed and over 47,000 have been wounded in 
action in the recent conflicts.
    When these servicemembers come home and take off the 
uniform, many of them have the expectation that life will just 
pick up where they left off before they were deployed. However, 
this is not the case. Many of them struggle to reconnect with 
their families and communities. They find themselves feeling 
isolated and unable to cope. The Department of Veterans Affairs 
reports that half of the OEF, OIF, and OND population that has 
access to VA health care has sought mental health treatment. 
Post-traumatic stress disorder is the number one reported 
mental health concern among this population.
    With so many OEF, OIF, OND servicemembers and veterans 
experiencing psychological wounds, reports suggest that there 
is an increase in the rates of suicide, alcohol and drug abuse, 
homelessness, and domestic violence. For this reason, it is 
essential that our servicemembers, veterans, and their families 
receive the help they need and that they have necessary tools 
to rejoin their communities. These programs and resources would 
not be possible without the thousands of community 
organizations across the country that work in partnership with 
the VA.
    At this hearing, I want to hear more about the 
reintegration challenges that servicemembers, veterans, and 
veterans' families face as well as the challenges the VA and 
community organizations face as well in providing support 
services. We need to identify potential solutions to these 
barriers and how we can strengthen these partnerships.
    Despite historic increases in the VA funding over the past 
5 years as the Nation prepares for an influx of returning 
veterans, reintegration efforts are simply not possible without 
collaboration between the Federal Government, business sector, 
and nonprofit organizations; and more needs to be done to 
facilitate these partnerships.
    I would like to take the time to thank our panelists for 
being here today, this afternoon, and I look forward to working 
with you as you support the Nation's veterans.
    I would especially like to thank Mr. Morris and Mr. McCoy 
for their service as chaplains in the Minnesota National Guard 
and the VA's National Chaplains Center respectively.
    In 2009, I led a congressional delegation to Afghanistan 
and came to learn that our servicemembers rely immensely on 
their chaplains for emotional support. Every trip since then I 
have come to respect the unique insight that our chaplains 
possess in terms of mental health, spiritual guidance, and the 
overall well-being of our servicemen and women. I look forward 
to hearing your testimony today as well.
    I want to thank you once again, Madam Chair, for having 
this very important hearing this afternoon. Thank you.
    [The prepared statement of Michael Michaud appears on p. 
39.]
    Ms. Buerkle. Thank you, Mr. Michaud.
    Now I would like to invite our first panel to the witness 
table. With us today is Andrew Davis, a veteran of Operation 
Enduring Freedom and Operation Iraq Freedom, the Director of 
the Veterans Services for Saratoga County, New York, and the 
founder of the Saratoga County Veterans Resource Initiative.
    Mr. Davis served in both Afghanistan and Iraq with the U.S. 
Army 75th Ranger Regiment where he earned the Bronze Star with 
Valor, the Combat Parachutist Badge, and the Combat 
Infantryman's Badge and is a true American hero.
    Mr. Davis, thank you for your service to this country. It 
is an honor to have you here today with us, and I very much 
look forward to hearing your testimony. You may begin.

 STATEMENT OF ANDREW DAVIS, VETERAN, DIRECTOR, SARATOGA COUNTY 
       VETERANS SERVICE AGENCY, SARATOGA COUNTY, NEW YORK

    Mr. Davis. Good afternoon, Chairwoman Buerkle, Ranking 
Member Michaud, and Members of the Committee. Thank you for the 
invitation to discuss the role of community providers and 
faith-based organizations in helping servicemembers transition 
to civilian life and the need for the U.S. Department of 
Veterans Affairs to use these resources and collaborate.
    My name is Andrew Davis. I am currently the Director of the 
Saratoga County Veterans Service Agency and the founder of the 
Saratoga VRI. I have been a veterans advocate since separating 
from the service in 2004 where I served as a United States Army 
Ranger for 5 years, to include two tours of duty in Afghanistan 
and one in Iraq.
    Upon returning to my home in Minnesota to further my 
education, I was faced with my first taste of how little I knew 
about being a veteran. In fact, like many of my peers, I was 
unsure if I even was a veteran. I was on a campus of 40,000 
students, and I didn't know any veterans around me. Because of 
this, I founded a nonprofit veterans support organization on 
the campus of the U of M to aid returning veterans in 
connecting with earned benefits and services.
    In later roles as a congressional staffer and a Department 
of Defense Transition Assistance Advisor, I saw firsthand the 
disconnect between veterans, their families, and the systems 
that are intended to support them. For the past 3 years, I have 
spent my career as a veterans advocate, either training 
accredited benefits counselors or being one myself; and this 
has provided me a frontline view of what is lacking in outreach 
and networked support to our veterans and their families.
    Last, I am currently an enrolled patient with the Veterans 
Health Administration in VISN-2 and use both the Albany 
Stratton VA Medical Center and Clifton Park Community-Based 
Outreach Clinic regularly.
    Veterans and the ways they serve have changed significantly 
over the last decade, resulting in the need for changes in the 
way our country, in turn, serves them. The veterans of today 
tend to be more geographically dispersed and more mobile than 
previous generations. Families and communities are affected and 
changed differently than ever before with multiple deployments 
and the unique use of the Guard and Reserve. Many of these 
individuals suffer from a lack of a ``Fort New York'' or a 
``Fort Minnesota'' or a central support system, making the 
local community even more crucial in the reintegration process.
    Despite a constant bombardment of media in all forms that 
afford the public access to our current wars, issues facing our 
neighbors, friends, family members, and other local veterans 
are often invisible to us as communities. Add to this a 
military culture that can encourage emotional toughness and 
self-sufficiency, and we face a large potential public health 
problem.
    Last, the uniqueness that makes our military and our 
veteran population great also means that there is not a one-
size-fits-all support system that can be created nationwide. We 
must garner community support and use community services to 
serve our veterans and their families completely.
    First and foremost, the population of veterans that find 
their way into the VA system of care or benefits system merely 
by accident is staggering. I can safely say that approximately 
five to seven veterans knock on my door weekly for some form of 
unrelated government service to find they are eligible for 
veterans benefits or care because of their service to this 
Nation.
    Just last week, a young Marine with two tours of duty in 
Afghanistan appeared in my office asking for directions to the 
office that handles unemployment benefits. This Marine outlined 
he had no idea what services he was eligible for or how to use 
his 5 years of free health care. So we sat down with him and 
helped him. If this Marine had not knocked on the wrong door, 
he would not have met with my staff to turn on his GI Bill 
benefits or learn where he could get health care.
    By all appearances, the U.S. Department of Veterans Affairs 
has recognized the need for community outreach but holds their 
hopes in the idea that top-down, one-sided information will 
filter down to the grassroots folks at the bottom helping 
individuals. For example, in the VISN-2 of Upstate New York, a 
few competent and well-trained veterans justice coordinators 
have been hired and put in place. However, the operative words 
here are ``a few.'' These people are responsible for numerous 
counties and for interacting with courts, district attorneys, 
and law enforcement, when in fact the police officers on the 
beat may be able to help them immediately.
    The correct mindset for reaching veterans must transition 
to a ``no wrong door'' approach. This can and should be created 
through a localized national training by VA, veterans 
advocates, and other experts to all members of the local 
communities. These newly created veteran-friendly communities 
would have the tools to make referrals to the proper resources, 
whether a veteran walks into a rectory, a tax assessor's 
office, or is pulled over during a traffic stop.
    Additionally, outreach and assistance programs cannot be 
reactionary in nature. The time to begin helping a veteran in 
legal trouble, for example, is upon first interaction, not just 
at sentencing. In fact, in my own transition, it was a police 
officer who pulled me over for driving in Minneapolis like I 
had been in Haditha and Bagram and introduced me to my first 
veterans advocate and helped me to realize that difficulty 
transitioning was normal. Additionally, I now receive as an 
accredited service officer a large number of referrals from 
local police officers that I call my friends.
    In sum, we as a Nation must stand committed to ensuring 
that sustainable and quality supportive services are accessible 
to veterans and their families right in their communities. I 
believe this can be done by leveraging resources that largely 
already exist in a cost-effective manner. The VA has the 
geographical disbursement and expertise to lead change, but we 
must think outside the box and look to those who are ready and 
willing to assist in our own backyards. The requirements to 
make this successful are not numerous. In many cases, putting 
out outreach staff and community advance is all it will take. 
We must begin immediately leveraging relationships and 
expertise that has long existed.
    Thank you again to the Committee for allowing me to speak 
to these important issues.
    [The prepared statement of Andrew Davis appears on p. 40.]
    Ms. Buerkle. Thank you very much, Mr. Davis; and, again, 
thank you for your service to our country.
    I am going to begin by yielding myself 5 minutes for 
questions.
    In your written testimony, you remark that after leaving 
the military you, as well as some of your peers, were unsure if 
you were even a veteran. If you look at the overall scheme of 
things, that is incredible, with the service that you gave to 
our Nation. I would like you to, if you could, expand on that 
statement and give us some insight into that.
    Mr. Davis. Absolutely. I like to point that out, ma'am, at 
any chance I can.
    In my eyes, a veteran was my grandfather at the American 
Legion who was telling World War II stories when I was a young 
kid.
    Additionally, I think there is a large confusion among our 
Guard and Reserve population and even those who support these 
wars from the homeland who may not even think of themselves as 
a veteran when you consider the folks who are coming home 
missing limbs or who have served multiple tours in combat.
    So an important distinction I like to point out to 
community members who are interested in helping is asking 
somebody if they or a family member have ever served in the 
United States military, as opposed to are you a veteran, 
because that can be sort of a dicey question.
    Ms. Buerkle. Thank you.
    Can you talk about how we can get to that veteran community 
when they are processing out and they are still active duty? 
How can we make it known to them that they would qualify for 
veteran assistance?
    Mr. Davis. Ma'am, I think one important thing to understand 
is that, no matter where we separate from, there is a very good 
possibility that is not where we are going to stay. I can tell 
you from my own experience separating in Fort Benning, Georgia, 
and returning to Minnesota, I got every resource available to 
me to stay in Fort Benning, Georgia, but I wasn't staying 
there.
    So the veteran returning to Syracuse from Marine duty in 
Camp Pendleton needs to be provided in Syracuse that local 
contact, whether that is a veterans service agency director or 
whether it is a VA clinic contact. But they need the contacts 
at home, not where they are separating from.
    Ms. Buerkle. Can you tell me how you think that the VA's 
reluctance to integrate with community resources may have 
obstructed your transition or other veterans' transitions into 
becoming a veteran?
    Mr. Davis. Yes, ma'am. I think the important thing that 
veterans need to understand when they are separating from duty 
is that every benefit needs to be turned on with the process of 
an application. For me, going to the University of Minnesota 
and having to use GI Bill benefits, I guess I just assumed 
somebody on campus was going to be there to help me, another 
veteran or somebody who was responsible for this benefit. But 
there wasn't one out of 40,000 that was there to assist with 
that effort.
    So if the VA had seen that this massive college campus was 
going to attract veterans, they may have put somebody 
proactively there or trained somebody. That is just education. 
But that person could also refer me to a health care resource 
or something similar.
    Ms. Buerkle. So now you are director of a community 
program; and I would like you to, if you could, describe for us 
your interactions with the VA now and what kind of relationship 
you have and how the VA is treating your group?
    Mr. Davis. Madam Chair, we come in quarterly to the VA 
hospital in Albany, and we do get to hear about departmental 
changes. We get a top-down budget overview of what the VA 
hospital director is dealing with. It does tend to be a fairly 
one-sided conversation. We hear about changes to the 
orthopedics ward or something like that, and we occasionally 
get to talk about an issue that is facing maybe one of our 
veterans. But as far as being able to have a two-way 
conversation about how to improve, that does not take place.
    In addition, I would point out that we hold events as 
county agencies that are for the purpose of outreach. The VA is 
invited to all of those, and I would be remiss if I told you 
that they were at all of those. They rarely take advantage of 
those community activities, at least in my area.
    Ms. Buerkle. I don't mean to ask you to speak or try to be 
in the mind of the VA, but why do you think there is a 
reluctance to collaborate with some of the outside groups 
rather than just the VA?
    Mr. Davis. Purely speculation, ma'am. I would say they may 
feel that they are the experts and the veterans should come to 
them and they can't share that load. But, again, that is purely 
speculation.
    I also would say that maybe it has never happened before, 
so maybe there is some reluctance to jump in and try something 
new.
    Ms. Buerkle. And last, if you could--and I just have a few 
seconds left--what barriers do you see for more effective 
relationships between the VA and some of the outside service 
groups?
    Mr. Davis. Ma'am, I think information sharing is obviously 
a fear among all agencies, how do we talk about veterans and 
get the proper consent for issues that they may be facing, 
whether it be mental or physical health care.
    But I also think staffing is something they always fall 
back on, and I have seen that take place in my area.
    Ms. Buerkle. I thank you very much, Mr. Davis.
    I now yield 5 minutes to the Ranking Member, Mr. Michaud.
    Mr. Michaud. Thank you very much, Madam Chair.
    I also want to thank you, Mr. Davis, for your service to 
this great Nation of ours. I appreciate it.
    Speaking about mental health, do you have any suggestions 
for us or the VA on creative approaches to addressing the 
mental health needs of returning veterans and their families?
    Mr. Davis. Sir, I appreciate the question. I would say that 
one thing that comes up often among my veterans is a reluctance 
to go physically to a VA mental center or even to a VA vet 
center, which is even more comfortable for that mental care, 
and a strong leaning toward paying out of pocket for private 
providers in their own backyard. So if there was some way to 
leverage that outsourcing, for lack of a better term, I would 
say that would go a long ways.
    But, too, also opening more mental health care to families 
and children out there where that family dynamic has changed 
through deployment, sometimes multiple deployments, sir.
    Mr. Michaud. Thank you.
    You mentioned the collaboration between the VA and the 
local community resources, some of the things that they should 
do. Is there anything in particular that you can tell this 
Subcommittee on what can we do to encourage more of that 
particular collaboration between the two?
    Mr. Davis. Sir, I think the VA needs to get out into the 
community a little more. My experience has been that there is 
not a shortage of people out in my communities that want to 
help, whether that be mental health providers on the private 
side or whether it be churches and law enforcement where I get 
a lot of my referrals from. They are ready to help, but they 
are not really sure where to send people to, because the VA, at 
least in my area, hasn't been out in force giving them cards 
and saying what they do.
    Mr. Michaud. You made an interesting point, and I actually 
heard Judge Russell, who is a judge in New York for the 
Veterans Court, and he made a good point and you just 
reemphasized that point. A lot of times veterans don't feel 
that they are veterans, and he rephrases the question now is 
how many people served in the military.
    When you look at outreach, I know the VA is trying to do 
more in outreach, getting veterans into the VA system, what do 
you think that we should do for more of an outreach type of 
program? Because a lot of veterans out there are not signing up 
because they don't realize that they are eligible. How do you 
envision us doing a better job in getting people into the VA 
system?
    Mr. Davis. Sir, I believe the question does need to be 
rephrased across the board. I think anytime we are looking to 
help veterans we need to ask that, have you or a family member 
ever served in the United States military, and that really 
breaks the ice. But, too, it allows me as an advocate and all 
of my peers as advocates to really start to look at what 
benefits might be available.
    I hate to put it this way, but the thing that gets a lot of 
veterans in my door is you might be missing out on some 
significant savings financially or on some serious financial 
benefits, whether it be a property tax exemption or disability 
compensation or free health care. So money gets people in the 
door, unfortunately, but also asking the right questions.
    Mr. Michaud. Do you think the Governors of each State and 
probably the President ought to do an executive order requiring 
every Federal agency or State agency that has an interaction, 
whether it is unemployment benefits, Medicare, or Medicaid, 
that one of the first questions that they ask is have you ever 
served in the military and somehow getting that information to 
the VA so they can reach out to those types of individuals?
    Mr. Davis. Yes, sir. I think every temporary assistance 
office, social services department, Medicaid, Medicare, but 
also every college application at a State-run school should 
have that question being asked and it should generate some sort 
of referral. Again, that no-wrong-door approach is crucial in 
helping these folks.
    Mr. Michaud. You had mentioned in your testimony that the 
VA interaction, that there is more of it dealt with on the VHA 
side versus the VBA side. How do you think the interaction 
between the two should be between VHA health and benefits side?
    Mr. Davis. Sir, I think one thing I am up against 
oftentimes with my clients is explaining the siloed barriers 
within the VA, that the cemetery administration and the health 
care administration and the benefits administration are not one 
entity. So you can actually theoretically get care at the VA 
hospital for 40 years and never have a disability claim put in, 
and vice versa, and I think that is confusing to veterans. And 
I think oftentimes when a veteran has a real problem with a 
claim within the VBA, they tend to blame the doctor at the 
hospital at the VHA, and vice versa, and it is not fair to the 
VA employees, but it is also not fair to the veteran to not 
understand that disparity.
    So I think having a more across-the-board understanding, 
but also, when we are talking to VHA, VBA and VCA should be in 
the room as well, and vice versa.
    Mr. Michaud. Thank you very much.
    I yield back, Madam Chair.
    Ms. Buerkle. Thank you.
    I now recognize the gentleman from Tennessee, Dr. Roe.
    Mr. Roe. Thank you.
    I just have a couple of questions for Mr. Davis. Again, 
thank you for your service to our country. I appreciate that.
    I think probably the first time I ever realized I was a 
veteran was somebody asking me to stand up at a Lincoln Day 
dinner. I never really thought about it very much. And, 
obviously, until you need those benefits, you don't.
    Last Congress, I went to Afghanistan with Mr. Michaud, and 
just got back from Afghanistan again on a CODEL I led about 4 
months ago. And we stopped in Landstuhl. I think the DoD is 
doing a better job of informing, at least from when I got out. 
Really, it was a couple of days and you were gone, not really 
knowing what benefits you had, if any. So I think they are 
doing a better job today.
    Where is the breakdown? Because there is so much access to 
information. It is just that our soldiers, when you have made 
that determination that you are going home, you go home and you 
don't think about it until you have a problem. Then, like you 
say, when you are at Benning or where I grew up near Fort 
Campbell, Kentucky, you have all kinds of support there. But if 
you move down to Hole in the Wall, Tennessee, you may not.
    We have a VA hospital in our community. People know where 
to go. But that is not necessarily for everyone, there are only 
three of them in the State of Tennessee. So how would you best 
get that information out to people? How do you do that?
    Mr. Davis. Well, sir, as my friend Colonel Morris will 
probably say, you are given the world's most important 
information as a veteran at the world's worst time by the 
world's worst briefers. As you are attempting to move your 
family and your livelihood back home or to the new location in 
this country, you are not thinking about those benefits, as you 
say. So even just having a contact card printed out for you at 
your transition would be a lot more helpful than a 130-slide 
briefing on the big picture of benefits.
    So the first thing I would say is we need to start teaching 
people how to be veterans at the beginning of their service and 
throughout their service, as opposed to right in the last 2 
weeks. But the second piece is getting people in who are 
actually advocates to brief, as opposed to the payers of the 
benefits, meaning the big-picture VA folks giving us that long 
PowerPoint presentation.
    Mr. Roe. I know our veterans service officers where we are 
do a tremendous job. And people come in, they really don't know 
the difference between these acronyms--VBA, VA. I mean, it is 
all one to them. They just think it is one. You are absolutely 
right.
    I see it all the time in my congressional office. If a 
disability claim is not moving forward and we get in on it, 
they don't know that the VA has nothing to do it. The hospital 
where they are going doesn't have anything to do with that. 
That is a totally different issue. I don't know that that is 
important. All the veteran wants is their benefits taken care 
of.
    So you would suggest a simple thing to do would be just be 
some contact, just a card with contact information. We ought to 
be able to make that happen pretty easily, if you think that 
would be helpful.
    Mr. Davis. I do, sir. I think attached to that DD-214 when 
you leave Fort Campbell should be here is the six most 
important people in your home county you need to see: 
unemployment, veterans advocate at the service office. You 
know, you name it. But these are the go-to folks when you get 
home.
    Mr. Roe. If you need some help, if the issue comes up, 
contact one of these people; and, like you said, there is no 
wrong door.
    Mr. Davis. Yes, sir.
    Mr. Roe. Any of them can open the door.
    I am not going to disagree with anything you said, except 
for one thing. I don't think the needs of veterans have changed 
at all. I had an aunt that knew my great-grandfather who 
survived the Civil War, and my great grandmother had said that 
he was never right after that war, meaning that he had 
problems. There just were no benefits then. I think veterans 
have experienced the same things.
    I think we are doing a better job. The GI Bill is 
spectacular. That is all I can say about it. It wasn't kicked 
out very well, but the Secretary has smoothed out some of those 
bumps. When a person goes and gets their veterans' benefit for 
their GI Bill, you are saying that the University of Minnesota, 
a huge, great university, didn't have any help. I mean, they 
have thousands of people working at that college, and so do 
most colleges that are of any size like that. They had no one 
there who knew what to do for you, where to send you?
    Mr. Davis. No, sir. And I can say that that has improved 
greatly across the country. Just 2 years ago, we kicked off a 
veteran-friendly campus event around New York; and we saw great 
universities like Syracuse University who have full offices for 
veterans. But that was not in existence when I separated in 
2004.
    Mr. Roe. So just in a short time you have been able to see 
that?
    Mr. Davis. Yes, sir.
    Mr. Roe. Once again, thank you for your service.
    I yield back.
    Ms. Buerkle. Thank you, Dr. Roe.
    Now I recognize the gentleman from Indiana, Mr. Donnelly.
    Mr. Donnelly. Thank you, Madam Chair; and, Mr. Davis, I too 
want to thank you for everything you have done for our country. 
There is no way we can ever repay your hard work, your 
dedication, and everything you have done for us; and we are 
very much in your service and in your appreciation.
    I wanted to ask about the Saratoga County Veterans Resource 
Initiative. What role does the VA play in the gatherings that 
you have when you gather quarterly to check best practices?
    Mr. Davis. Sir, to date, we have had six meetings, and the 
VA has been present at one, and it was the second meeting, and 
that was in the form of the families outreach program that 
existed at the Albany VA Medical Center. The VHA and the Vet 
Center have been invited to every meeting and have yet to have 
much participation.
    Mr. Donnelly. Did they tell you why?
    Mr. Davis. Every time, sir, it has been that they didn't 
have the staff or they hadn't gotten approval to attend.
    Mr. Donnelly. Okay. And I apologize if I missed this early 
on in your testimony, but, at those gatherings, have they 
proved pretty fruitful for you?
    Mr. Davis. Yes, sir. At the very beginning, we learned how 
this room full of people that all knew each other had no idea 
what any of us did on behalf of veterans, so at that very level 
it started being helpful.
    In addition, I don't go more than 3 days without a call 
from a fellow member of the Resource Initiative with a referral 
from a veteran who came into their office. So, yes.
    Mr. Donnelly. So have you found that there is a lot of 
people trying real hard, but it is like a bunch of cars driving 
past each other and nobody knows what is going on in the other 
cars?
    Mr. Davis. Yes, sir. Exactly.
    Mr. Donnelly. Okay. Well, I promise you we will work real 
hard with you, take the lessons you have given us, and try to 
make sure we can spread the things you are doing to the rest of 
the country. Thank you again, sir.
    Ms. Buerkle. Thank you.
    I now yield to the gentleman from Florida, Mr. Bilirakis.
    Mr. Bilirakis. Thank you so much for holding this hearing, 
Madam Chair. I appreciate it.
    Thank you for your service, sir.
    We are pretty active in our congressional district. I have 
an advisory council. We have a resource fair on an annual 
basis. We just finished a jobs fair that was very well 
attended. I visit the VFWs, as does my staff, American Legions, 
what have you, and also go to the VA.
    But what more can we do as a congressional office. I know 
that one of the reasons you are here is to testify on behalf of 
how we can bring the VA closer to our veterans. What more can 
we do? Do you have any suggestions? You know, we can always do 
more. What can we do as a congressional office to further that 
goal?
    Mr. Davis. Sir, it sounds like you are doing a lot of the 
things that I would suggest. But one thing I often point out to 
congressional staff is that veterans, when they come to a 
congressional staff member, have never, many times, filed a 
claim or even interacted with the VA for the first time. They 
are just under that assumption that they are a veteran who is 
eligible for something and in turn is not getting what they 
deserve.
    So that reverse referral to a local advocate, whether it be 
an American Legion service officer or whether it be a county 
person or a State person I think is the first step I would 
take. Because, oftentimes, your staff is very overwhelmed and 
may not know everything about the local benefits or the State 
benefits on top of the Federal, or vice versa. So a reverse 
referral would be a big suggestion I would make.
    Mr. Bilirakis. Thank you very much.
    I yield back, Madam Chair.
    Ms. Buerkle. I now yield to the gentleman from New Jersey, 
Mr. Runyan.
    Mr. Runyan. No questions. I yield back.
    Ms. Buerkle. Thank you.
    We will wait for Mr. Reyes.
    Mr. Reyes, I know you just joined us. We have Mr. Davis 
here, if you have any questions.
    Mr. Reyes. I have no questions.
    Ms. Buerkle. I guess that is it for questions, Mr. Davis. 
Again, thank you very much for your testimony and for your 
comments. You are now excused.
    Mr. Davis. Thank you, Madam Chair.
    Ms. Buerkle. I invite the second panel to the witness 
table.
    With us today is Chaplain John Morris, the Joint Force 
Headquarters Chaplain from the Minnesota National Guard.
    Chaplain Morris is a Colonel in the Minnesota National 
Guard and is the co-founder of the Beyond the Yellow Ribbon 
Initiative which facilitates collaborations between the 
Minnesota National Guard, VA, and local faith-based and 
community resources to support the reintegration of Minnesota's 
National Guard combat veterans.
    I would like to thank you, Chaplain Morris, for your 
service to our Nation and for your very important advocacy 
efforts.
    I will now yield to Mr. Donnelly to introduce our next 
witness.
    Mr. Donnelly. Thank you, Madam Chair; and it is a great 
honor to have Dr. MacDermid Wadsworth.
    Madam Chair, fellow Health Subcommittee Members, I would 
like to introduce you to Dr. Shelley MacDermid Wadsworth, an 
Associate Dean of Purdue University's College of Health and 
Human Sciences. As a Notre Dame grad, it pains me to mention 
Purdue, but I will do so anyhow.
    Dr. MacDermid Wadsworth also serves as director of Purdue's 
Military Family Research Institute which works to improve the 
lives of servicemembers and their families in Indiana and 
across the country by strengthening and supporting the efforts 
of military and civilian organizations to provide services, 
education, and training to military families. I just want to 
mention Purdue has done an extraordinary job with this, and we 
are incredibly grateful.
    We are grateful to Dr. MacDermid Wadsworth, who knows how 
many people in our State serve and how dedicated the families 
and everyone is. And I just want to say that your work is 
making a difference in the lives of everyone, not only in our 
State but in the country. Thank you very much.
    Ms. Buerkle. Thank you, Mr. Donnelly, and welcome, Dr. 
MacDermid Wadsworth.
    Also joining our second panel is Dr. David Rudd and Dr. 
George Ake. Earlier in my opening comments I mentioned we had a 
symposium in Syracuse, and I was honored to welcome both of you 
to Syracuse for that event. I don't believe it was snowing that 
day, and we had a very successful symposium.
    Dr. Rudd is the Dean of the College of Social and 
Behavioral Sciences at the University of Utah, where he also 
serves as Scientific Director for the National Center for 
Veterans Studies. In addition, he was recently elected 
Distinguished Practitioner and Scholar of the National 
Academies of Practice in Psychology.
    Dr. Rudd is also a Gulf War veteran, and I would like to 
thank him for his honorable service to our Nation in uniform 
and for his continued dedication to improving the lives of his 
fellow veterans through his research. Thank you, Dr. Rudd.
    Dr. Ake is an Assistant Professor of Medical Psychology at 
the Duke University Medical Center, and he is here today on 
behalf of the American Psychological Association.
    Dr. Ake is a child psychologist and has worked extensively 
with the National Child Traumatic Stress Network, where his 
work has focused on assisting children and families who have 
experienced stressful and traumatic life events, including a 
military deployment and its aftermath. He is a recent winner of 
the Durham, North Carolina, Police Department's Community 
Service Award, and it is an honor to have him with us today.
    I thank you all very much for being here this afternoon. I 
am eager to begin our discussion.
    So, Chaplain Morris, we will start with you. Thank you very 
much.

STATEMENTS OF CHAPLAIN JOHN J. MORRIS, JOINT FORCE HEADQUARTERS 
     CHAPLAIN, MINNESOTA NATIONAL GUARD; SHELLEY MacDERMID 
WADSWORTH, PH.D., DIRECTOR, MILITARY FAMILY RESEARCH INSTITUTE, 
PURDUE UNIVERSITY; M. DAVID RUDD, PH.D., ABPP, DEAN, COLLEGE OF 
 SOCIAL AND BEHAVIORAL SCIENCES, SCIENTIFIC DIRECTOR, NATIONAL 
CENTER FOR VETERAN STUDIES, UNIVERSITY OF UTAH; AND GEORGE AKE 
  III, PH.D., ASSISTANT PROFESSOR OF MEDICAL PSYCHOLOGY, DUKE 
         UNIVERSITY, AMERICAN PSYCHOLOGICAL ASSOCIATION

              STATEMENT OF CHAPLAIN JOHN J. MORRIS

    Colonel Morris. Chair Buerkle, Ranking Member Michaud, and 
Members of the Subcommittee, thank you for the honor of being 
here.
    I am Chaplain Morris. I am the State Chaplain of the 
Minnesota National Guard, and I am fortunate to be the co-
founder of the Beyond the Yellow Ribbon Program that you made 
the national standard for the reintegration of the Reserve and 
the Guard. I am a three-tour combat veteran. I am the son of a 
combat veteran. I am the father of two combat veterans.
    I am here as a fan of the VA. I am a customer. I am also a 
close collaborator, and my daughters are customers. The 
Minnesota Guard has had a very productive relationship with the 
VA, and I think we have something to share with the Nation, but 
I will encapsulate it in this story from Saturday.
    I was at an event for 2,500 of our families whose soldiers 
are now serving in Kuwait. We were feeding them. A mother came 
up to me and said, you don't remember me. My son came home with 
a local infantry unit from Kosovo, and you were at the 
reintegration event, and I asked you to help my son. I want you 
to see him. He is doing so much better.
    I sat down with the young man. I indeed had pulled him out 
of the registration line that morning 30 days after returning 
from a 9-month tour in Kosovo. He was high on crack. We 
immediately took him to the emergency room of the local 
hospital in Rochester, Minnesota. After a 72-hour hold there, 
he was taken to St. Cloud VA for inpatient chemical dependency 
treatment. And he was proud to tell me a year and a half later 
he was straight, he was sober, he was married, and introduced 
me to his wife, who was pregnant with twins, and he was facing 
a tremendous future. That is the collaboration that we have 
with the VA in Minnesota.
    We have done the RINGS 1 and 2 study with our First 
Brigade, which is on its second combat deployment. The 
Minneapolis VA has done a tremendous longitudinal study with 
our soldiers and their families that I think is going to set 
straight some of the mythology around PTSD and over-reporting 
of that problem and an under-reporting of the impact that 
healthy community reintegration-based programs can have on 
returning veterans.
    We have pushed VA teams far forward to enroll our 
demobilizing soldiers at demob sites around the country. We 
have had the VA actually train our command and staff--I was a 
part of this in 2009--preparing to deploy to Iraq. We had the 
VA train our commanding general and all of our leading staff in 
the polytrauma unit in Minnesota. We got a first-hand look at 
what war is really like, the impact of the weaponry of war and 
on the human body and what combat trauma can do.
    So we have a good relationship, but I think the VA could do 
even better, and so I am here today to talk about some of those 
problems and some of the solutions.
    The VA suffers under the perception of being a very 
isolated institution, and it has a stigma. All we hear about it 
is bad things. We rarely hear the great things they do. From 
loss of laptops and compromise of our security to homeless 
veterans who commit suicide, the mantra of bad news about the 
VA is steady, and it really affects the community's view of the 
VA. And I can say that as a person who deals every day with 
community leaders throughout Minnesota.
    The institutionalism of the VA which Andy Davis so well 
alluded to is a problem and it keeps the VA inside its building 
and not always out in the community sharing its knowledge with 
us who are on the ground working with the majority of the 
veterans.
    I think, unfortunately, the steady mantra about PTSD, 25 
percent--whatever it is, the CBO report that came out last week 
saying 21 percent--I think it is over-reported, and it is not 
substantiated, and it has created an impression that the VA is 
the only institution that can solve combat trauma, that all 
veterans have it, and it is contributing to a double-digit 
unemployment rate among our veterans--which is truly the 
problem we have. It is getting work. It is not getting mental 
health care.
    Minnesota is the land of 10,000 mental health and chemical 
dependency treatment centers. We like to say it is 10,000 
lakes, but it is 10,000 treatment centers. There are plenty of 
people who want to help us with mental health. That is not our 
biggest problem. And we are caught in some kind of a loop 
between the VA and Congress trumpeting a problem, when the 
bigger problem is being underfunded and underaddressed. And we 
can fix it, and we can do it in Minnesota, and we are going to 
do it.
    We have gotten the VA to come out into the community and 
work with us, get on to our drill floors and talk to our 
families. We have had the VA come and meet with our physicians 
and share the knowledge that the VA has so that the provider 
out in rural America can take care of families and veterans. We 
have synchronized services so that when somebody leaves VA care 
they can tie into Yellow Ribbon communities to get the care 
they need. And we have asked the VA to not only publish what 
they know in academic journals but to share with lay people 
through veterans organizations and through our political and 
elected representatives so that news can get down and counter 
the steady stream of bad news.
    I think the VA's one important part of the reintegration 
process--it is not the only part, and it is not the most 
important part--the most important part of the reintegration 
process is the community. It is our responsibility to bring our 
soldiers all the way home and to take care of their families. 
We sent them to war. It is our job to bring them back. The VA 
is a partner in that, but it is not a stand-alone partner. It 
is not the only partner. It is a partner.
    Every State that is empowered through its Governor to 
partner with its VA will be an effective State in reaching its 
communities and empowering them to bring their veterans all the 
way home. At the end of the day, we are going to live in 
communities, we are going to serve in communities, and if we 
can't learn to be productive in our communities, it won't 
matter how good the VA is. We still won't be all the way home.
    Madam Chair, thank you for this privilege to be here; and, 
Committee Members, thank you for what you are doing. It is an 
honor to be here, and it has been a great privilege for me as 
part of my career to have this chance to share this with you.
    [The prepared statement of John Morris appears on p. 43.]
    Ms. Buerkle. Thank you very much Chaplain Morris.
    Dr. MacDermid Wadsworth.

        STATEMENT OF SHELLEY MacDERMID WADSWORTH, PH.D.

    Ms. Wadsworth. Thank you.
    Chairwoman Buerkle, Congressman Michaud, and distinguished 
Members of the Committee, thank you for convening this hearing; 
and thank you to Representative Donnelly for such a kind 
introduction.
    I am proud to be a faculty member at Purdue University, the 
land grant institution for the great State of Indiana, and also 
to direct the Military Family Research Institute. I am pleased 
to report that we were involved in several innovative 
collaborations involving the VA. Our vision is to make a 
difference for families who serve.
    My institute has created or participates in collaborations 
involving VA partners in the areas of homelessness, higher 
education, vocational rehabilitation, behavioral health care, 
outreach to community partners, and research. Our higher 
education initiative, for example, is putting mechanisms in 
place that could help every student, servicemember, and veteran 
in Indiana and potentially reduce GI Bill costs with the help 
of VA certifying officials, the Indiana Commission on Higher 
Education, and others.
    The vocational rehabilitation effort for which we serve as 
the evaluation partner has been a national leader in placing 
wounded warriors in employment and keeping them there; and, 
again, without VA professionals at the table, this would not 
have occurred.
    Based on these experiences, I know that successful 
collaborations are possible, can benefit military and veterans' 
families significantly, and can contribute substantively to the 
VA mission.
    I identify several keys to success in my written statement 
but will focus my remarks here on challenges and opportunities 
that might benefit from policy or legislative attention.
    Number one: Create clear points of entry for prospective 
collaborators in multiple VA tracks. Prospective community 
partners, particularly those located at a physical distance 
from a medical center, find it very difficult to determine whom 
to approach to partner, and the independence of the medical 
centers means that there must be a local connection. The VA 
Office of Faith-Based and Neighborhood Partnerships is very 
important, but there are still many untapped partners who can 
multiply the reach of the VA.
    Number two: Develop mechanisms to separate the ``wheat'' 
from the ``chaff'' among prospective partners. VA professionals 
are understandably wary of showing favoritism to particular 
organizations. Unfortunately, this means that reputable 
partners with much to offer may get held at arm's length, the 
same as bad actors.
    Number three: Reduce structural barriers to collaboration. 
It is difficult to get information from the VA sometimes. It is 
difficult for outsiders to engage in research with VA 
populations. It is difficult for community partners to find and 
connect with military and veteran families, particularly in 
low-density areas. Sometimes it feels as though there is a 
fence around the VA.
    Number four: Provide tangible incentives and benefits to 
community and VA partners who collaborate effectively. 
Collaborations do take resources, but they also can generate 
resources by attracting additional contributions of skills, 
people, money, or information. Compared to the costs of 
services that don't get used and clients who don't get served, 
collaborations can be very cost-effective instruments.
    It has been our great honor to work to make a difference 
for military and veteran families. We are inspired by the 
commitment and dedication shown by professionals in many 
sectors who share that mission, and we are eager to continue 
collaborating to make positive change.
    Thank you for all you do to try to make sure that our 
Nation's veterans receive the care and support they have been 
promised.
    This concludes my statement. Thank you for your kind 
attention.
    [The prepared statement of Shelley MacDermid Wadsworth 
appears on p. 46.]
    Ms. Buerkle. Thank you very much, Dr. MacDermid Wadsworth.
    Dr. Rudd, you may proceed.

            STATEMENT OF M. DAVID RUDD, PH.D., ABPP

    Mr. Rudd. Chairwoman Buerkle, Ranking Member Michaud, and 
Members of the Subcommittee, I very much appreciate the 
opportunity to testify on behalf of the National Center for 
Veterans Studies and the University of Utah.
    Chairwoman Buerkle, I am very pleased and would tell you 
enthusiastic about seeing you taking leadership on what I 
believe to be a critical issue on the reintegration of veterans 
into society after having served so admirably in terms of our 
Nation and our needs.
    You have my written statement. I am not going to repeat 
much of what is in the statement. I do want to highlight a few 
critical points.
    I want to comment on Colonel Morris' note about the issue 
of reintegration and misunderstanding.
    I think it is important to recognize that, since the Gulf 
War, less than 1 percent of Americans have served in the Armed 
Forces. This is a tremendous shift from World War II when 
almost 9 percent served; Korea and Vietnam, both greater than 2 
percent served. And as we have fewer and fewer Americans 
serving in the Armed Forces the possibility for 
misunderstanding, the possibility for difficulty in 
reintegration is compounded; and I think that probably speaks 
to the issue that was raised by Colonel Morris, which I think 
is a vital one.
    I would like to speak about a couple of areas of research 
and highlight a few things that I think sheds some light on the 
opportunity for reintegration, in two areas in particular: one, 
universities; and, two, organizations, communities of faith and 
local churches.
    Some recent work by the Pew Research Center revealed that 
27 percent of veterans reported that readjustment to civilian 
life was either difficult, somewhat difficult, or very 
difficult. The survey also revealed significant burdens of 
service identified by servicemembers, with 48 percent reporting 
strains in family relationships, 47 percent frequently feeling 
irritable or angry, 44 percent reporting problems reentering 
civilian life, and 37 percent reporting post-trauma symptoms. 
This doesn't necessarily mean post-traumatic stress disorder 
but trauma-related symptoms. Despite the fact that many 
veterans transition from military life with few problems, I 
think these data indicate the significance of the problem, and 
it has been fairly profound over the course of the last 5 
years.
    The Pew data offer insight into the source of the problem 
as well, particularly in terms of emotional and psychological 
adjustment. Among those having experienced combat, 50 percent 
or more report post-trauma symptoms, a difficulty with family 
relationships. When they were queried about factors reducing 
the probability for successful reentry into civilian life, 
veterans identified traumatic experiences and physical injury 
as the most significant variables.
    Of importance for this hearing, veterans identified 
attending church at least weekly as the most important variable 
associated with an easy and successful reentry into civilian 
life. A remarkable 67 percent identified attending church once 
a week or more as making reentry easier.
    Clearly, the social connections and support offered by 
religious communities and institutions around the Nation are 
essential for our veterans. I would tell you that they really 
possess enormous opportunity to help veterans transition. I 
think that Colonel Morris spoke to this issue in terms of 
stigma that is associated with mental health problems, with 
PTSD in particular. The opportunity for intervention, the 
opportunity for assistance in local churches is truly 
remarkable.
    I would tell you that, of the veterans that I know, the 
veterans that I have worked with would much rather go to local 
clergy than to go to a clinical psychologist, to go to a 
psychiatrist, to go to a mental health specialist. With the 
right training, with the right resources, that kind of a 
partnership is precisely one that we need to pursue; and I 
would like to see the VA take a lead in that area.
    Now, I can tell you a little bit about my own work that I 
think has helped clarify the severity and the magnitude of the 
problems in terms of emotional and psychological issues faced 
by veterans, and a very specific subset of veterans that I 
would speak to are student veterans.
    We recently did a national survey looking at student 
veterans transitioning from the service back on to university 
campuses, and I would tell you that, arguably, this is the 
second-best place to capture veterans, is on university 
campuses, that outside of the medical centers, outside of the 
Veterans Benefit Administration, this is where you will find 
veterans.
    If you look at the data that are in my statement, you will 
find that the numbers are fairly profound in terms of the rates 
and the magnitude of the reported problems. Now, what is 
interesting is that those veterans are on campus, those 
veterans are functioning on campus, and I would tell you that 
they are functioning quite well, but they need assistance. 
Making sure that campuses are well prepared is something that 
is critical for us to do.
    So I would encourage you, in terms of looking for 
partnerships and expanding partnerships that the VA has already 
pursued, universities are a wonderful place, communities, 
organizations, institutions of faith, local churches are a 
wonderful place. Those are places where veterans will go, those 
are places where veterans don't feel the severity and the 
magnitude of stigma, and the opportunity to help is tremendous. 
So I would encourage you to think about those two areas 
specifically.
    I would be happy to talk to you in a little bit more detail 
if you have questions afterward. But, Chairwoman Buerkle, thank 
you very much for your time.
    [The prepared statement of David Rudd appears on p. 49.]
    Ms. Buerkle. Thank you, Dr. Rudd.
    Dr. Ake.

               STATEMENT OF GEORGE AKE III, PH.D.

    Mr. Ake. Good afternoon, Chairwoman Buerkle, Ranking Member 
Michaud, and Members of the Subcommittee. Thank you for the 
opportunity to testify on behalf of the 154,000 members and 
affiliates of the American Psychological Association regarding 
the collaboration between the Department of Veterans Affairs 
and community organizations to support veterans and their 
families.
    As a child psychologist at Duke University Medical Center 
and with the National Child Traumatic Stress Network, my work 
focuses on assisting children and families who have experienced 
traumatic life events, including military combat and its 
aftermath. I am honored to speak with you today about the 
collaborative work that I and my colleagues are engaged in to 
support our Nation's military and veteran families.
    Collaboration among all sectors of society is needed to 
support the health and well-being of veterans and their 
families. This includes key partnerships with policymakers, 
government agencies, universities, the health care community, 
and the faith-based community.
    Scientific evidence continues to identify psychological and 
neurological disorders, including post-traumatic stress 
disorder, depression, suicidal ideation, and traumatic brain 
injury as some of the signature wounds of recent conflicts. 
While psychologists and other health professionals play an 
essential role in helping veterans and families to address 
these challenges, partnerships and collaborations with other 
sectors of society are also critical.
    While there are numerous specific programs for veterans and 
their families, many families rely upon the support of faith-
based providers as a first point of contact. The members of 
this community who are here today will address these issues, 
but I want to underscore the extraordinary value of our 
collaborative mental health work with faith-based providers 
related to military and veteran families, a partnership which 
enriches our work in many ways.
    I would like to express my deep appreciation to you, 
Chairwoman Buerkle, for your leadership in advancing 
collaboration between the mental health faith-based communities 
and military and veteran families. The unique military and 
veterans mental health workshop that you hosted for faith-based 
providers in your district in December served as a wonderful 
example of the collaboration that is possible across sectors. I 
was honored to join the distinguished panel of experts that you 
assembled. Such events help to break down barriers and foster 
partnerships that benefit veterans and their families. 
Replicating this training in other congressional districts 
could serve as a valuable resource.
    Collaboration between military and faith-based and other 
community systems is especially important as we consider 2010 
Department of Defense data which estimates that 44 percent of 
the 1.4 million active duty and National Guard-Reserve 
personnel who deployed to combat missions as a part of OEF, 
OIF, and OND are parents. DoD also estimates that nearly 2 
million children in the United States have parents who are 
active duty or Reserve personnel, many of whom have experienced 
multiple combat deployments.
    Some military families face severe challenges during 
reintegration, such as a parent who returns changed due to the 
winds of war or financial hardship, homelessness, marital 
discord or violence and other difficulties. Still other 
families experience the grief and loss associated with their 
loved one's fatal combat injury or even suicide. These findings 
highlight the necessity of considering the context and 
challenges for children and families of veterans, as well as 
the role of the family in facilitating a successful transition 
to stateside service or civilian life.
    To support veterans, their families need easy access to 
collaborative programs and supports through VA and many other 
service sectors. As a member of the National Child Traumatic 
Stress Network, we are proud to contribute to such efforts.
    The NCTSN is an initiative launched by Congress in 2000 to 
develop a national collaborative network to improve best 
practices and standards of care for children and families 
affected by traumatic stress, including military families. Our 
130 centers in 40 States collaborate with many organizations, 
including the VA, DoD, the National Guard, the American 
Psychological Association, faith-based organizations, and many 
others.
    We offer evidence-based interventions, educational 
materials, curriculum for civilian providers, and much more, 
all available on the Web site. My written testimony offers many 
specific examples of this work, including a Welcome Back 
Veterans program at the Duke University for training community 
clinicians, a collaboration with the VA's National Center for 
PTSD to train providers, including military chaplains, on acute 
stress interventions, collaboration with the military 
chaplains, and a family resilience program called FOCUS now 
being used at more than 20 military installations, a 
partnership with the TAPS program to help military families 
after the death of a loved one, and the ADAPT parenting program 
for Reserve families in Minnesota.
    In conclusion, we have seen the collaborative efforts 
between the military and veteran communities and partners such 
as faith-based providers, mental health professionals, and 
others have yielded effective services for our military and 
veteran families. The American Psychological Association, Duke 
University Medical Center, and the National Child Traumatic 
Stress Network all stand ready to continue our collaborative 
efforts with the Subcommittee, the VA, the DoD, our community-
based partners, and the military and veteran community to 
address these important issues.
    Thank you for the opportunity to speak with you today and 
for your leadership and commitment to our Nation's veterans and 
their families.
    [The prepared statement of George Ake appears on p. 51.]
    Ms. Buerkle. Thank you all very much.
    I will now yield myself 5 minutes for questions. I will 
start with Chaplain--Colonel Morris. As an experienced chaplain 
and someone who has been in the military and a veteran, first 
of all, do you think there is value with the faith-based 
community; but, beyond that, how can we integrate that 
transition using faith-based services?
    Colonel Morris. Madam Chair, there certainly is value in 
collaboration between faith-based institutions and the VA and 
being a part of the reintegration process. We do this in 
Minnesota in a variety of ways. We train clergy in every 
community that wants to be a yellow-ribbon community in how to 
help military families during deployments, and then how to help 
returning combat veterans reintegrate into their community and 
into their family.
    Another thing that faith-based organizations can do is be a 
part of the employment process. The military does not provide 
guidance counseling, nor should it, to veterans preparing to 
leave in how to reenter this free market globally oriented 
economy. It is a tough transition to find a job here when you 
have been hauling a rifle around the mountains of Afghanistan. 
Faith-based organizations have employed people who have done 
it. Life-to-life transfer, those skills, job-seeking support 
groups and faith-based organizations are a grass-roots, easy-
to-tap sort of a resource that doesn't cost anybody anything, 
and it provides that sense of community that a veteran needs to 
hang in there to find that job. This is just a couple of 
examples. There are plenty more that can be done to tap that 
virtually untapped segment of our community.
    Ms. Buerkle. Thank you. Dr. Ake, what is, if any, the VA's 
involvement with the National Child Traumatic Stress Network?
    Mr. Ake. To my knowledge there are many different 
collaborative efforts, including a Webinar tomorrow, a master 
speaking series from Zero to Three, and the National Child 
Traumatic Stress Network focused on making sure services are 
available to veteran families. And so the network often draws 
on the expertise of many different entities working with 
military and veteran families to speak on their perspective on 
how to help them.
    Ms. Buerkle. So that is your group, not the VA. Are you 
working directly with the VA?
    Mr. Ake. I think that is one example as far as drawing on 
VA speakers for the master speaker series, but there are others 
related to the Adapt program in Minnesota where there is an 
after-deployment adapting parenting tools program pulling from 
several different groups, but I would need to defer to the 
partners that are actually doing those initiatives.
    Ms. Buerkle. Thank you. Dr. Wadsworth, in your testimony 
you talk about structural barriers more so with the veteran 
population. Can you expand on that a little bit?
    Ms. Wadsworth. Yes. I think because the Veterans 
Administration and those who care about the Veterans 
Administration care a lot about making sure that veterans 
privacy is protected, making sure that veterans are never 
subjected to care that is of substandard quality. There are 
many rules and policies and restrictions and checks and 
balances in place to try to ensure that all those things 
happen, but the result is that it can make it very difficult to 
move forward in collaboration.
    My primary identity is as a researcher. If I would like to 
conduct a study of a VA population, the study must be led by a 
Veterans Administration principal investigator, and that is a 
structural barrier because it means I have to find somebody who 
would agree to let me partner with them to do the study.
    We have a partner who we work with to do outreach. They 
actually arranged for us to receive the funding instead of 
them, because we can work with hotels and do logistics more 
easily than they can. So people find creative workarounds. But 
these same policies, in many cases that are put in place to 
protect, end up serving as barriers.
    Ms. Buerkle. Thank you. And last, Dr. Rudd, you mentioned 
education being the second-best place to serve as a safety net 
to locate veterans. Do you have any suggestions for how we can 
integrate that piece into education with our universities and 
our colleges and our community colleges?
    Mr. Rudd. Well, I think there are a number of things we can 
do. The VA has already implemented the Vet Success on Campus 
program, which provides actually benefits counselors and 
rehabilitation counselors that work on university campuses, so 
they are hired and employed by the VA but actually are placed 
on the university campus, which is a very good program.
    But I would tell you that the kind of barrier that exists 
is a really simple one. So if you take that program as an 
example of which the University of Utah just started 
participating this year, the VA has broadly expanded that 
program over the course of the last year. One of the issues for 
us, we ultimately were able to work through it, was that we 
didn't actually get to be involved in the interview process for 
the hiring of that employee. So we had two employees hired. We 
didn't get to participate in the interview process because it 
is a VA employee, but yet they are going to work full time on 
our campus. Real partnering means that you participate fully. 
It doesn't mean we get to make the decision, but it means we 
get to be intimately involved in that partnership, and I think 
expanding that program would be wonderful.
    The VA is also experimenting with the placement of 
psychologists in counseling centers, and so if you look in the 
University of Texas at Austin, this past year they hired a VA 
psychologist to work specifically in the counseling center to 
provide therapy, given issues of stigma at local VA medical 
centers, and these are individuals that are trained very 
specifically in the treatment of combat-related trauma. That is 
a wonderful program. It would be nice to see that expanded and, 
again, to have that be a true partnership so that you don't 
necessarily get to dictate who is hired but you are involved in 
the process of hiring and making sure that it is the right 
person for the campus.
    The last thing that I would suggest is that universities as 
a whole could do a better job at probably the issue that 
Colonel Morris spoke to, which is really giving credit for 
military experience. We need to do a better job at giving 
soldiers credit for life experiences and technical training 
that they have, and providing college credit for that that 
facilitates employment.
    So I would tell you on the university side, we can do a 
better job. And actually our center is going to pursue some 
effort nationally about trying to coordinate that in terms of 
giving academic credit, facilitating the employment picture for 
veterans.
    Ms. Buerkle. Thank you all very much.
    I now yield 5 minutes to the Ranking Member, Mr. Michaud.
    Mr. Michaud. Thank you, Madam Chair. Once again I would 
like to thank the four panelists for your testimony this 
afternoon.
    Colonel Morris, what would you say is the biggest 
difference there is between reintegration between Guard and 
Reserves as opposed to the Active military?
    Colonel Morris. Sir, I have done it both ways. Andy and I 
spent a lot of time talking about this. I think that the 
Federal soldier, sailor, airman, and marine, the Active Duty or 
the reservist, have the most difficult challenge. Generally 
they are returning to a place different than they served, and 
often if they are a Reservist, their unit has been pulled 
together from diverse geographic locations, and they are going 
home alone or in ones and twos. I have gone to war as a person 
all by myself, the Army of one, and it is not fun to come home 
as the Army of one. Guard units generally return as a 
community, out of an armory located in a community; they have 
built-in camaraderie and community support. I think the Guard 
actually has an advantage in terms of reintegration.
    I think the toughest organization for reintegration is the 
United States Marine Corps, an elite, proud group. And elite 
warriors across the services that are serving on Active Duty 
have a very tough challenge coming back. They leave a very 
community, they have a lot of secrets, and they come back to a 
public that absolutely does not understand what they have done, 
and they are by themselves. They have the hardest challenge, no 
doubt.
    Mr. Michaud. Thank you.
    Dr. Rudd, you mentioned the Pew Research Center, and part 
of the study had talked about--you mentioned 44 percent of the 
post-9/11 veterans say their readjustment to civilian life was 
difficult by contrast to just 25 percent of veterans who served 
in earlier eras. What do you distinguish--or do you know in 
this study why the difference? Is it because if you look at 
what is happening in Iraq and Afghanistan, a huge influx of 
Guard and Reserves, or do you think there is a distinction 
between Guard and Reserves in the readjustment versus Active 
military?
    Mr. Rudd. I think that is a great question. I would tell 
you, it is somewhat speculative, it is probably a combination 
of those things. I think reintegration is problematic from one 
perspective in that fewer and fewer Americans serve in the 
Armed Forces, and so fewer and fewer understand the issues that 
military face.
    I think, too, I think a larger portion of the combat 
mission has fallen to Guard and reservists, which makes it a 
little bit more difficult in terms of reintegration. The 
primary problem, if you look at the West, if you look at Utah 
as an example, one of the challenges for our Guard individuals 
is the dispersion after they return, that they are dispersed 
into relatively low populated areas, limited access to service, 
and limited access to one another, so that there is limited 
access to one another.
    One of the wonderful things about student veterans is that 
they have an opportunity to gather on a campus, they have an 
opportunity to identify on a campus, and that helps. And I 
think that that is a part of what churches do. I think that 
they provide an opportunity to gather, provide that critical 
emotional support.
    So I think it is probably a confluence of factors and that 
these have been unique wars. It is a unique time in our 
history, and the way that we structured the military is very 
much unique relative to Vietnam, relative to Korea, and 
relative to World War II, and as a result I think the 
reintegration challenges are unique.
    Mr. Michaud. Thank you.
    Dr. Wadsworth, you discussed in your testimony the 
structural barriers to collaboration as it pertains to the VA 
system. Do you find the same barriers are there dealing with 
the Department of Defense?
    Ms. Wadsworth. There certainly are some barriers. I would 
say that over the course of this war, DoD has really come to 
understand that they cannot rely on simply their own resources 
to meet the needs, particularly of the Reserve component, and 
with the closing of bases and the increased reliance on the 
Reserve component, they must partner with communities. I think 
they still are working out their models, but there are many, 
many examples of partnerships really permeating throughout the 
country. For example, an extensive partnership with the 
cooperative extension system, which means that DoD now has a 
reach into every county in the country.
    Mr. Michaud. My last question is for Colonel Morris. How 
many community organizations does Beyond the Yellow Ribbon 
Initiative work with? Is it pretty much throughout your State?
    Colonel Morris. Sir, we have 73 communities that the 
Governor has officially recognized as yellow-ribbon 
communities, dozens of corporations and different entities, 
faith-based organizations, that have been recognized as well.
    The adjutant general's plan is that every community in 
Minnesota that has a National Guard, Army Reserve, Navy Reserve 
facility will be a yellow-ribbon community. We anticipate being 
well over a hundred. Each community has to train every aspect 
of their community: faith-based, law enforcement, behavioral 
mental health, education and employers. So it is an extensive 
effort to get every community online to do what they really 
want to do, and that is go Beyond the Yellow Ribbon and take 
care of their military families and their veterans.
    Mr. Michaud. Great. Thank you. Thank you very much, Madam 
Chair.
    Ms. Buerkle. Thank you, Mr. Michaud. I now yield to the 
gentleman from New Jersey, Mr. Runyan.
    Mr. Runyan. Thank you, Madam Chair. I know, Dr. Rudd just 
kind of answered my question in just giving the opportunity to 
meet and talk, but I can tell you firsthand in my district 
there is actually a faith-based hospital system that does a lot 
of the mental health for the joint base there in my district. 
And it has been a tremendous help because it really comes on--
especially when you talk about the West, but in my district, 
too, access to care is a huge part of it. And I think what the 
chaplain is really saying, and I want to ask you this, because 
that is the ultimate issue is the access, whether it is 
religious based or whether it is on a college campus.
    In the programs you run, what is that initial hurdle? What 
got that ball rolling to make this a community-based--to get 
the community involved? Because I know the community on many 
levels in the Guard--in dealing with the Guard is involved. But 
on this aspect of it, what was the one thing that got the ball 
rolling and allowed it to happen?
    Colonel Morris. Well, two things, sir. Our previous 
adjutant general hired me with this statement: I don't want my 
soldiers treated the way I was when I came home from Vietnam. 
Go fix that.
    Pretty big challenge. But what he was saying is I don't 
want my soldiers stigmatized by the people who sent them to 
war. So that put it right down at the community level.
    It is very obvious in Minnesota where we have a lot of 
trained behavioral mental health professionals, chemical 
dependency professionals, that anybody needing that kind of 
care is much more comfortable using their TRICARE benefits in 
their backyard, with people that they know and trust, versus 
traveling to a large institution that is unfamiliar to them. 
But helping those people understand what our peculiar set of 
issues might be, how to get that training, that was a challenge 
for us at first, because the people with that training are 
inside the VA. So getting them to come out and share the wealth 
of experience with the provider at the local level was 
initially a tough hurdle to overcome, and we have overcome it; 
and now maybe too well, because now we have a constant message 
of, ``You are mentally ill, you are a victim. You went to 
war.''
    Most of us are not mentally ill, most of us were not 
traumatized in war. The fact of the matter is, after three 
combat tours, I can certify most of us were bored to death. We 
never saw anybody to shoot, and we never fired our weapon. We 
were never fired at. So we have a whole different set of issues 
to deal with. But we have trumpeted that issue so well that I 
have a steady stream of mental health providers offering me 
help, more than I could probably use. Good collaboration with 
the VA; I just don't have enough employers. That is my next 
hurdle.
    Mr. Runyan. I think we would all agree on that as we 
continue to--our unemployment in our men and women coming home 
continue to rise. And with that I yield back, Chairman.
    Ms. Buerkle. Thank you. Mr. Donnelly.
    Mr. Donnelly. Thank you, Madam Chair.
    This would be to Dr. Rudd and Dr. Wadsworth. When you talk 
about college programs and college models that you have, is 
there any effort being put in now to, in effect, almost putting 
like a college, here is a model college program together, 
something that can be used at IU or at TCU or at Rice or at any 
other schools that are out there that they can almost get a 
turnkey program?
    Mr. Rudd. I think there are. I can tell you that actually 
our center is leading an effort on two fronts. One on the 
mental health front; but also more broadly, just on student 
reintegration, we are actually trying to initiate forming a 
national consortium to do that very thing, to say here are best 
practices on college campuses both in terms of how you work 
with distressed students, but more importantly, how you work 
with transitioning students from their education to employment. 
And really trying to create community partnerships is a piece 
of that, so that we can help individuals find jobs and make the 
transition. So I would tell you that there is some effort.
    The other thing I would tell you is that the VA actually 
has been very proactive in this area. We have the Assistant 
Secretary for Policy and Planning is going to come visit our 
campus at the end of March for this very issue. We are looking 
at exploring how do we partner, how do we get models in place, 
and then how do we distribute and, most importantly, how do we 
do that quickly?
    Mr. Donnelly. Dr. Wadsworth.
    Ms. Wadsworth. Yes, I think the data are still not 
completely clear about exactly which strategies work the best, 
but we do know promising practices. In Indiana we have actually 
been working with institutions across the State, so we 
approached it right from the beginning at a systemic level, and 
we try to think about it from a life-cycle perspective: What do 
colleges and universities have to do to be well prepared for 
students when they first get there, including transfer credit; 
how do they best support them while they are there; and how do 
they ease the transition from the campus?
    And so we are working with systems of higher education to 
try to help them remove some of the structural barriers, and 
that is where the transfer credit issue really can come in.
    We also work closely with student veteran organizations who 
are a key element, I think, in providing a sense of home on 
campus where student veterans can find each other and help each 
other.
    Mr. Donnelly. Thank you very much.
    Dr. Morris, or Chaplain Morris, one of the areas that has 
continued to break everyone's hearts here is the suicide of 
vets, and a lot of these cases you hear afterwards say, Well, I 
saw one or two people, but they never really understood me.
    I just wonder if you have any ideas on what organizations 
or what people or what are the critical elements to best have 
someone who can understand that person when they talk to them?
    Colonel Morris. Sir, first of all, after Indiana beat 
Minnesota twice this year in basketball, I am struggling with 
depression.
    Mr. Donnelly. Well, sir, we haven't won a national 
championship in about 25 years, so we give it a good run 
ourselves.
    Colonel Morris. Minnesota tragically leads the Nation in 
terms of the National Guard in suicide, so this is an issue 
that has got the entire focus of our Governor, adjutant 
general, and all the staff. I wish I had a magic answer for 
you, sir. We have thrown everything against this problem that 
we possibly can.
    I think General Chiarelli, before he retired, his 
exhaustive report to the Army on this issue highlighted several 
things. We need to do a better job screening before people come 
into the military because we know that we have seen suicides of 
people who brought preexisting conditions to us. In the 
Minnesota Guard, most who committed suicide never had deployed. 
Some committed suicide prior to ever going to basic training. 
Something was going on in their lives before they came to us.
    Now, how can we all be more alert? We focus most of our 
effort on that. Is it the first sergeant, the first line 
leader, is it the company commander, is it the chaplain? We 
have decided to train them all down to the squad level leader.
    We have also decided to train families, and so we are 
working aggressively in all our reintegration academies to 
train our families in suicide prevention. That is a step we 
have never considered before. We are doing that full fledged. 
We train local clergy, we train the local behavioral mental 
health providers. But, again, we are cognizant that we are 
fearful that we are going to create a stigma against the people 
we are actually trying to help, that, again, we are all 
mentally ill, and we know we are not. We know that society has 
a suicide problem, not just the military, but we are owning 
this problem, and we are facing it head on because these are 
precious soldiers who we have invested so much in and want so 
much to retain, but we haven't found the magic bullet of the 
person to solve the problem.
    Mr. Donnelly. Well, thank you very much for your efforts on 
this, and obviously it is a concern to all of us because these 
men and women come back having served our country, and they 
reach out, and what you hear time after time is, ``I couldn't 
find anybody who really understood what I am going through.''
    And so we will stay after it, but thank all of you for your 
help. Madam Chair, I yield back. Thank you.
    Ms. Buerkle. Thank you, Mr. Donnelly. I now yield to the 
gentleman from Texas, Mr. Reyes.
    Mr. Reyes. Thank you, Madam Chair. I appreciate the 
opportunity to be here. I am wondering, if we go back even to 
the days of the Romans, if they didn't deal with these same 
kinds of issues. And I say that because I came back from 
Vietnam after serving with some really bad guys that society 
had said, ``You have a choice, go to jail or go to the Army.'' 
And those were very good soldiers that exemplified, the bad 
cards that they were dealt for many different reasons.
    Obviously I don't know what happened to them after we came 
back from Vietnam. I can only use my example that having come 
back under the circumstances that we came back under, where we 
weren't received well, we each individually wrestled with the 
question, what I did for the past 13 months, was that worth it 
for these people that are ungrateful? But what got me through 
was my family. My family and a priest that my mom said, You 
know, you need to go to Father Velazquez and have him help you 
through this. So community and family are an important part of 
the healing process.
    But I am wondering, for those soldiers that were dealt the 
bad hand, that went and excelled under the most difficult 
circumstances anybody who has been in combat can tell you it 
sucks. It is the most difficult challenge you will ever face. 
But they did it, and they excelled. I don't know if it was 
because they came from the inner cities or they came from 
gangs, or whatever the situation was. I can tell you, they were 
very good soldiers that knew how to fight, and fought and 
distinguished themselves.
    So you fast-forward to today, and the situation is 
dramatically different. The country appreciates the all-
volunteer force. I am a little bit troubled, Chaplain, by the 
fact that you make a statement that some of these people had 
issues when they joined the military. I thought we had a way of 
screening, because these are all volunteers in today's 
military. They are supported, at least in my community, 110 
percent by the people of El Paso, Texas; including Fort Bliss, 
White Sands, and Holloman.
    So I am wondering, should the VA be doing some kind of 
research that includes either case histories or organizations 
or a community's role in how you embrace your soldiers? Wel 
send them into combat on the drop of a hat and therefore, we 
better be there for them when they come back with nightmares 
and, all the things that a lot of us experienced but got 
through because of our family and because of a priest or a 
rabbi or another religion figure. Sometimes a buddy would do 
help get you through an experience.
    So should the VA be doing some kind of comprehensive 
research? You know, here it is centuries after the Roman 
legions, and before that the Vikings. I am just thinking, if 
you were in combat, no matter whether it is modern or ancient, 
that is pretty tough stuff that you have to deal with. So 
anybody have any thoughts on that?
    Colonel Morris. Sir, Chaplain Morris. First of all, thank 
you for your service and welcome home. I want to tell you 
something about your generation, sir. Referring back to my 
general's challenge to me, don't let this generation be treated 
like me. It was pointed out to me very quickly by Vietnam 
veterans that despite the stigma of America, you now lead this 
Nation in every area of productivity; you run our universities, 
our hospitals; you are our political leaders; you have attained 
the highest offices in the land despite the stigma heaped on 
you. And I keep using that illustration with my young veterans: 
If you could attain the position you have today, despite all 
you went through, we should be able to go to Mars and back with 
all the goodwill that we have today, and all the gains we have 
today are because of the pain of the Vietnam veteran. So, sir, 
I salute you and your colleagues. Welcome back, you have done a 
great job.
    Should the VA study this issue? They are, sir. The 
Minneapolis VA, the RINGS 1 and RINGS 2 study will be the 
definitive study on the challenges of reintegration, and has 
within it the seeds for understanding how to successfully bring 
soldiers all the way back. This brigade that is in Iraq today 
from the Minnesota Guard is under the research of the 
Minneapolis VA, and I think when this longitudinal study is put 
together, we are going to have the answers to the questions 
that you raise. But I do think, sir, we have to do a better job 
in the all-volunteer Army screening for prior mental health 
issues.
    I intervened personally in Iraq in five cases where 
soldiers were suicidal. They were on medication prior to 
enlisting in the military, knew they couldn't enlist if they 
took and owned up to what they were on under the care of a 
psychiatrist. They stopped taking the medication, made it 
through basic, made it through advanced individual training, 
got into combat, and spiraled to become suicidal. They should 
have never been on the battlefield.
    We do not provide much screening for mental health issues 
other than to ask you, Do you have a history and are you taking 
any medication? That is a pretty low bar. So undoubtedly, I am 
telling you from firsthand, we have taken people in and we are 
taking people in who should not be in the military because of 
conditions that they are afflicted with. We have to do a better 
job on the front end if we want to see that suicide rate go 
down.
    Mr. Reyes. Thank you. Madam Chair, maybe that is something 
that we can pursue via a hearing at a later date, because I 
really do think it is important, especially if we have that 
sense that there are those that are coming into an all-
volunteer force. Maybe we ought to find out what percentage you 
would think that they were. But it is something worth pursuing.
    Ms. Buerkle. It certainly is worth pursuing. Thank you all 
very much for your testimony and for answering our questions, 
and you are all dismissed. Thank you.
    I invite the third panel to the witness table. Joining us 
on our third panel is Reverend E. Terri LaVelle, director of 
the Center for Faith-Based and Neighborhood Partnerships in the 
Office of the Secretary for the U.S. Department of Veterans 
Affairs; and Chaplain Michael McCoy, Sr., associate director 
for the National Chaplain Center for Veterans Health 
Administration in the U.S. Department of Veterans Affairs.
    Before we begin your testimonies, I would like to thank 
Chaplain McCoy for his service to the Navy.
    Reverend LaVelle, you may proceed.

   STATEMENTS OF REV. E. TERRI LaVELLE, DIRECTOR, CENTER FOR 
   FAITH-BASED AND NEIGHBORHOOD PARTNERSHIPS, OFFICE OF THE 
 SECRETARY, U.S. DEPARTMENT OF VETERANS AFFAIRS; AND CHAPLAIN 
   MICHAEL McCOY, SR., ASSOCIATE DIRECTOR, NATIONAL CHAPLAIN 
  CENTER, VETERANS HEALTH ADMINISTRATION, U.S. DEPARTMENT OF 
                        VETERANS AFFAIRS

             STATEMENT OF REVEREND E. TERRI LaVELLE

    Reverend LaVelle. Chairman Buerkle, Ranking Member Michaud, 
and Members of the Subcommittee, thank you for the opportunity 
to appear before you today to discuss VA's outreach to faith-
based, nonprofit community leaders and organizations to better 
equip them to work with our veterans, their family survivors, 
and caregivers.
    As director of the Center for Faith-Based and Neighborhood 
Partnerships since September 2009, every day I draw on my 
experience as a registered nurse, ordained minister, and 
program director to connect faith-based nonprofit and community 
leaders to the people, programs, and services VA offers our 
veterans. Our primary goal, focus, and mission is to get our 
veterans the help they need and deserve.
    The Center for Faith-Based and Neighborhood Partnerships, 
along with VA colleagues from across the country, work hard to 
develop strong partnerships with faith-based, nonprofit and 
community leaders and to provide them with the information on 
VA services and invite them to participate in VA programs.
    Every day, servicemembers are returning home to stay, some 
after multiple deployments. After returning home--returning 
home can be challenging. Often I hear stories about how 
difficult it is for these veterans to connect with family, 
settle into a new routine, and find work. These challenges may 
seem commonplace to us, but they represent unique stresses for 
our veterans. Many veterans seek help and support from family, 
their place of worship, or their community. When they do, we at 
the Center for Faith-Based and Neighborhood Partnerships make 
sure these individuals are well equipped to provide information 
on VA's programs and services.
    Just as important, we make sure that every leader knows at 
least one VA staff person he or she can call on when working 
with a veteran, someone who can act as a resource and help them 
help the veteran in need and find useful VA programs and 
services. We do this by cohosting outreach events across the 
country to introduce faith and community leaders to the 
programs and services VA provides. We try to help these leaders 
understand how to work with VA and other partners and, in doing 
so, expand and enhance the ministries and programs they 
currently have in place that can serve veterans.
    For example, sometimes the only thing keeping a veteran 
from getting the health or mental health or benefit services he 
or she needs from the VA is not having a way to get to the 
necessary clinic or office, so an organization may want to 
provide transportation through their existing transportation 
ministry, providing each veteran with a dependable free ride. 
The organization can work with VA's voluntary service office, 
which is located at every VA medical center, to coordinate a 
volunteer transportation program. Volunteer services is ready 
with all the information the organization needs to spring into 
action.
    In addition, many faith-based organizations have counseling 
ministries or programs unfamiliar with the unique challenges 
veterans face returning home--and their families. VA chaplains 
and social workers will provide training to community leaders, 
pastors, lay leaders, and support staff to help them understand 
the unique needs and challenges veterans may be facing. In all 
of our outreach efforts, VA includes both local and regional VA 
staff as panelists and roundtable participants and a VA 
chaplain who can provide an understanding on the special needs 
of veterans returning from deployment.
    We grow our relationships with community and faith-based 
leaders by hosting quarterly conference calls, maintaining an 
informative Web site, and sending information out on a regular 
basis to over 1,200 Listserve members, and our Listserve is 
growing all the time. We know our veterans come from a variety 
of different backgrounds, cultures, and faith traditions and 
that they represent the diversity that makes up our great 
country, so we continue to expand our outreach by developing 
new relationships with diverse communities.
    Madam Chairwoman, I believe that, without a vision, that 
people perish; but under the leadership of Secretary Shinseki 
and the Center for Faith-Based and Neighborhood Partnerships, 
our veterans will not perish. We offer a vision and a plan for 
preparing faith-based and community leaders with the tools they 
need to serve our veterans in their communities.
    I would also like to extend my thanks to all of my fellow 
panelists and our elected officials who have served in our 
military for your service and your sacrifice.
    I am now prepared to answer any questions.
    [The prepared statement of Reverend LaVelle appears on p. 
54.]
    Ms. Buerkle. Thank you very much, Reverend LaVelle.
    Chaplain McCoy, you may proceed.

                         STATEMENT OF 
            LIEUTENANT COMMANDER MICHAEL McCOY, SR.

    Lieutenant Commander McCoy. Chairwoman Buerkle and Ranking 
Member Michaud, and Members of the Subcommittee, thank you for 
the opportunity to speak about the Department of Veterans 
Affairs (VA) Chaplain Service's outreach efforts with community 
and faith-based organizations.
    As a VA chaplain over the last 21 years and a former Navy 
chaplain, I have found one of my greatest joys has been working 
with veterans and providing meaningful programs to aid them in 
their healing. My testimony today will cover three programs 
created by VA chaplains to help build bridges between VA, the 
faith-based communities, and neighborhood leaders to aid in the 
spiritual care of our returning veterans and their families.
    The VA National Chaplain Center started the Veterans 
Community Outreach Initiative to educate community clergy about 
the spiritual and emotional needs of our returning veterans and 
their families. Nationwide, VA chaplains have conducted over 
200 training events and provided education to approximately 
10,000 clergy through this effort. As a result, clergy across 
the Nation are learning to help veterans identify and cope with 
readjustment challenges the veterans and their families face 
following deployment, identify the psychological and spiritual 
effects of war trauma on survivors, and serve as a trusted and 
knowledgeable resource for veterans to use to connect with VA.
    Just a week ago I received a phone call from a local pastor 
in Virginia who had attended one of our outreach events. He 
said, ``I am very impressed by the passionate commitment and 
excellent resources available to veterans, and I need your 
help. Today a member of my church, whose son recently returned 
from deployment in Iraq, called me, hopeless, his father did, 
and in despair. He said the young man had just been arrested 
and put in jail in Richmond, Virginia. His father said his son 
was clearly experiencing PTSD, but he didn't know how to help 
him. Can you help me link the veteran to the VA services he 
needs?'' I promptly made the call linking the veteran to VA 
providers who could most effectively care for him.
    This is just one among many veterans who has benefited from 
the Veteran Community Outreach Initiative events that our 
chaplains are sponsoring to establish collegial relationships 
between VA chaplains and community clergy. I truly believe that 
a worthy goal of this program is for local clergy across the 
Nation to say, ``I know the local VA MC chaplains. They are 
devoted to care for veterans and their families. If I call 
them, they will help me connect families who have come to me 
for guidance to the VA resources they need.''
    Each clergy who attends a VCOI event receives a tool kit, 
prepared by the National Chaplain Center, of books, brochures, 
information packets and important phone numbers and Web sites 
to aid them in providing a helpful support to the veterans and 
his or her family.
    My time here is short, so I will just briefly mention two 
other important VA programs. Our marriage enrichment program 
was developed based on concerns over the large number of stress 
marriages experienced by our veterans who are returning. We 
have discovered that all too often the spouse who has gone to 
war and returned may have physical, emotional, and spiritual 
wounds that have not yet healed. These stresses often led to 
family crisis and divorce, so we began a program called Getting 
It Back, reclaiming your relationship after combat deployment. 
It is designed to help married couples develop healthy ways of 
interacting and relating with one another. Community leaders 
and faith-based volunteers collaborating with VA chaplains, 
psychiatrists, and social workers have contributed in making 
the program a success.
    Finally, I will mention our Heal the Healer program for 
returning National Guard and Reserve chaplains home from recent 
deployment. The program offers an open forum to share the 
experience and emotions associated with employment, introduces 
them to other chaplains with similar experience, and offers 
insight on how we may intervene in the future to provide 
appropriate and timely care for our chaplains returning from 
combat zones. The stories and tears in these sessions are many. 
And we, working and caring for our veterans, they too have 
changed our chaplains who have worn our uniforms in caring for 
partnerships and creating partnerships with local clergy, our 
faith group endorsers and community faith group leaders, 
working together to reach out and offer support to returning 
chaplains, veterans, and family.
    Madam Chair, thank you for the opportunity to share this 
opportunity with you to speak on these concerns, and I am now 
prepared to answer any questions.
    [The prepared statement of Reverend McCoy appears on p. 
56.]
    Ms. Buerkle. Thank you both very much for your testimony. I 
will now yield myself 5 minutes for questions.
    Reverend McCoy, the 200 or so training events that were 
conducted throughout the country, can you just expand on that a 
little bit? How do you choose the sites, how many people 
attend, and is followup done after those events?
    Lieutenant Commander McCoy. Yes, thank you for the 
opportunity to respond to that question. We have offered 
actually 233 of these training events throughout the country 
really, where our VA medical centers primarily are located. 
What we have done in these particular programs is to identify 
the readjustment challenges that veterans and their families 
face following deployment. The goal is to identify 
psychological and spiritual effects of war trauma, of 
survivors, consider appropriate pastoral care interventions 
with the local clergy so they can have some idea, when we talk 
about PTSD and when we talk about brain injury, that they kind 
of understand something about these and the signs of these 
particular diseases.
    We had a community clergy to brainstorm with us how we can 
partner together in order that we can provide the best of care 
to our returning warriors. We refer veterans to local VA health 
care facilities. We always give them a packet of information, 
Web sites, phone numbers, and books that they can have, that is 
free, and these have been very beneficial in making veterans 
connect to the VA, and it created relationships among the 
chaplains with local clergy throughout their various 
communities.
    Ms. Buerkle. Thank you very much.
    Does the VA chaplain group have a strategic plan? For 
instance, I have a VA facility in my district. We have a 
wonderful VA hospital in Syracuse, and we had an event where we 
targeted the clergy. We had a distinguished panel come in and 
instructed our clergy as to what to look for, what the signs 
and symptoms are, family involvement. It was very 
comprehensive. Now, we probably invited maybe 600 members of 
the clergy, all denominations. No one mentioned your 
organization. So maybe this is where the disconnect is.
    We are talking about all these parallel initiatives going 
on. How do you get your word out? Do you have a strategic plan 
to hit all of the communities throughout the country?
    Lieutenant Commander McCoy. Yes, we are expanding that, 
Madam Chairman. We have a strategic plan, and we have efforts, 
and the local clergy at that particular VA, and we have a 
template for them to follow. Our numbers for this outreach is 
increasing.
    I understand you are from the New York area. I think we 
have had 22 of these veteran outreach programs with clergy in 
the New York area to this date.
    Ms. Buerkle. We are in Upstate, so that may be different 
than the New York area. We are in the country.
    Lieutenant Commander McCoy. One of the things we are, if I 
can--we have started a rural program, and our initiative, rural 
initiative, is to target some of the rural areas where there is 
not perhaps VA hospitals, but perhaps where we can use--where 
we can go near CBOCs or various clinics and so forth where we 
can offer these services. We always bring in various speakers, 
not just chaplains, but the clergy. We also have a 
psychiatrist, a social worker, somebody perhaps from the faith-
based community, all to intersect in creating this partnership 
with us.
    Ms. Buerkle. Thank you very much.
    Reverend LaVelle, I understand that much of your outreach 
efforts center on educating the community about programs and 
services available through the VA. How do you--what kind of 
outreach is done with the VA so that they know that you exist 
and that they know of your services that are available?
    Reverend LaVelle. Well, we have a steering committee, and 
all three administrations are represented on our steering 
committee. A representative from the three VA administrations 
and the VA program and staff offices, and our steering 
committee meets quarterly. We also do quarterly conference 
calls where we have internal and external partners that are a 
part of our Listserve, which includes VA staff. We also work 
with veterans benefits administrations, vocational 
rehabilitation and employment service, and four times a year we 
do outreach events at four different regions throughout the 
country in partnership with the regional office in that host 
city. So that is how we get the word out and work 
collaboratively within VA.
    Ms. Buerkle. Thank you both very much. I now yield to the 
Ranking Member, Mr. Michaud.
    Mr. Michaud. Thank you, Madam Chair. This question is for 
both. Colonel, you touched upon it, but what is being done 
specifically to address the support needs of our veterans that 
reside in rural areas or underserved areas of the country? 
Let's start with Reverend LaVelle.
    Reverend LaVelle. Well, one thing. Last year I requested 
from the Vocational Rehabilitation Employment Services field 
office that when they choose the four sites for the fiscal year 
2012 roundtables, that one of those sites be a rural area. So 
that is the one thing we have done. But I also know that our 
Chaplain Service has had a rural initiative where they have 
been working with rural clergy.
    The other thing I did is that in our quarterly conference 
call in September of 2011, there is a VA medical center 
chaplain in Arkansas, in Little Rock, who has started an 
initiative with rural clergy. We had him as a guest speaker so 
that he could describe his program so that others on the call 
could learn how to work with rural clergy.
    So those are some of the things that our center has done as 
relates to outreach to the rural areas.
    Lieutenant Commander McCoy. Thank you for that opportunity 
to respond. We as chaplains have begun a rural clergy program 
with a strategy, and this--as a matter of fact, next week we 
are having one, I think it is going to be in the Roanoke area, 
and we are moving throughout the country and we will expand 
that program, and I think there will be several this year, but 
we will expand it in rural areas. We are actually targeting 
these areas. We are sending out hundreds of invitations and 
letters. We are working with the community clergy to also--
sometimes, I found out, when other clergy sometimes talk to 
other clergy, you get better attendance. So we are using word 
of mouth and using the presidents of some of the clergy 
associations to help us bridge this gap.
    Mr. Michaud. Reverend LaVelle, you mentioned the four 
areas. Which area is the rural area? You mentioned you did 
outreach in four areas. What one is going to be in the rural 
area? What is your definition of what area is the rural area?
    Reverend LaVelle. Well, I don't have--I don't know the 
definition of a rural area. But I just made the request to the 
field office for Veterans Benefits Administration to say one of 
the areas needed to be a rural area, and the four cities that 
they gave us back for this year was Huntington, West Virginia; 
Albuquerque, New Mexico; Lincoln, Nebraska; and Boston, 
Massachusetts. And if I am not mistaken, it is the Huntington--
--
    Mr. Michaud. I think there is a definition problem because 
those are not--none of them are rural.
    Reverend LaVelle. Okay. Then I will go back and check with 
them, but I specifically requested.
    The other problem is that--it is not a problem, I shouldn't 
say that. They sent me an email maybe a week ago, and I have 
been away on travel, that some of those cities are changing. So 
they must have--because I reiterated, but those are the initial 
cities they sent me for fiscal year 2012. I apologize. I don't 
have in my head the definition of ``rural.''
    Mr. Michaud. Well, I mean, when you mentioned one of those 
four areas should be rural, I mean the fact that you just said 
all four are cities, you know, that is not rural. When you look 
at what is happening with our Active military as well as the 
veterans that actually do live in rural areas, I think they 
should not be left behind. So since you are the director of the 
VA Center for Faith-Based and Neighborhood Partnerships within 
the VA system, have you talked to the Office of Rural Health?
    Reverend LaVelle. Yes, I have met with them once. Yes, I 
met with them, and I will go back, and really for my own 
benefit get the--what they define as rural, so that I make sure 
when I get the information again from the field office that 
there is a meeting of the minds and that we are both speaking 
the same language.
    Mr. Michaud. You said you met with them once?
    Reverend LaVelle. When I first came on board.
    Mr. Michaud. How long have you been on board?
    Reverend LaVelle. It has been 2\1/2\ years.
    Mr. Michaud. Two-and-a-half years.
    Reverend LaVelle. But the field offices are the people that 
actually work with them and provide me with the locations. I 
don't make that determination. But I will definitely follow up, 
and if you want me to, I can get back to your office with the 
definitive information.
    Mr. Michaud. Thank you. You talk about collaboration with 
faith-based organizations. To the best of your knowledge, do 
these faith-based organizations, do they charge veterans to 
access whatever help that they might need, do you know?
    Lieutenant Commander McCoy. May I answer that? No. Most are 
volunteers. They actually, out of their compassion and their 
love and willingness to help the veterans, they have went into 
their pockets often to provide services for our veterans, 
either transportation or various types of programs that they 
are offering in the communities.
    Reverend LaVelle. The organizations that I have worked 
with, the churches that have transportation ministries, have 
said we are more than willing to say that so many days a week, 
so many hours, we will use our current transportation ministry 
to get veterans to and from appointments. Churches that have 
counseling ministries or support groups have said, ``We are 
more than willing to develop a support group if you can provide 
us with people to come in and talk to us specifically about the 
unique challenges of veterans returning from combat.''
    Like my home church here in D.C., our entire counseling 
ministry consists of Ph.D.s and licensed clinical social 
workers, but their expertise has not been in dealing with 
veterans per se, so they are open to having VA chaplains and/or 
our social workers come in and do training so that they are 
better equipped as our veterans return and become a part--and 
return to the church, to work with them and their families 
without any charge.
    Mr. Michaud. Thank you. I see my time has run out. Thank 
you very much.
    Ms. Buerkle. I now yield to the gentleman from Texas, Mr. 
Reyes.
    Mr. Reyes. Thank you, Madam Chair. You mentioned the four 
cities in 2012. Did you have four cities in 2011?
    Reverend LaVelle. Yes, the Center for Faith-Based and 
Neighborhood Partnerships has been collaborating with VBA, 
Vocational Rehabilitation and Employment Service since 2005 in 
these efforts, yes.
    Mr. Reyes. So in 2011 what were those cities; do you have 
that information?
    Reverend LaVelle. Yes, I do.
    Mr. Reyes. The reason I ask is because, traditionally, 
Texas and California have the most veterans and the most Active 
Duty----
    Reverend LaVelle. The center was in Waco, Texas, twice. 
Once in Waco, Texas, as a result of VBA and the center's 
collaboration, but then the Waco Foundation requested that we 
come back and do another roundtable. And so then when I came on 
board we went back to Waco, Texas. We were in----
    Mr. Reyes. Just out of curiosity, why can't your outreach 
programs be part of every VA director's duties? For instance, I 
have a VA clinic, what they call a super clinic, in El Paso. 
Joan Ricard is our director. Why can't your programs be part of 
the menu of services, or have her be responsible to provide 
information? As the chairwoman said, in her case she actually 
convened people at a meeting and your programs never came up. I 
find that a little bit troubling.
    So why can't it be part of every Veterans Administration 
director? Albuquerque is good, they are 386 miles northwest of 
El Paso, but they serve a different clientele than the El Paso 
VA clinic. And if not by the VA director, why not the VISN? But 
there has got to be a way to send the information out because 
veterans desperately need these kinds of support systems.
    Lieutenant Commander McCoy. Thank you for that question 
because we are collaborating with the Office of Rural Health 
and with our programs and chaplains, and we also are 
collaborating with mental health and other agencies. All of our 
chaplains who worked for various VA medical centers have been 
basically mandated to provide this type of program.
    Now, in terms of the rural health, we at the National 
Center, with chaplains of course, move out into various other 
areas.
    Mr. Reyes. So is the closest chaplain to El Paso in Waco?
    Lieutenant Commander McCoy. Yes.
    Mr. Reyes. It is? That is 600 miles. Albuquerque is closer 
to me than Waco, and that is what----
    Lieutenant Commander McCoy. Now, you do have clinics. And 
so we have chaplains that will visit occasionally those 
clinics. And we also are going to expand the program where we 
will have--actually, hopefully, we will have programs in the 
clinics--that is our directions--and to go out to the various 
locations.
    Now, all of the faith-based activities do not happen, or 
these clergy events do not happen in a VA hospital or a VA 
facility. They are happening in churches, educational 
buildings, and that type of thing.
    Mr. Reyes. I understand that, but I have a veterans meeting 
every month. It is a citizens advisory panel for veterans.
    Lieutenant Commander McCoy. Yes.
    Mr. Reyes. And Joan Ricard goes there every month. She is 
very good about attending. But the times that I have been, we 
have never heard the information about your programs. So is 
there a reason why you can't designate the VA directors in our 
respective areas to provide information and a process? I think 
it makes perfect sense for Joan Ricard to have these programs 
and to select maybe a clergy board or some other system where 
there is a chaplain or chaplains, because we have a facility 
that is going to grow to 45,000 soldiers and they are all 
coming back from multiple tours in Iraq and Afghanistan.
    I hear it from the priests, the ministers, and the rabbis 
of the work that they are doing to support the military, both 
soldiers and their families. And I also hear it from judges 
that are working in the family courts where there are divorces 
going on, and they are asking me why isn't there some kind of 
an intervention program that provides counseling for these 
families that are being torn apart because of multiple tours 
and things like that? I think this would be a great way to at 
least try to do that, and I don't understand why the VA 
wouldn't want to impart that authority or that responsibility 
to our VA directors. I certainly hope you would take that back, 
and maybe we can follow that up and make that happen somehow.
    Reverend LaVelle. I can--I will definitely send an email to 
the chief of staff for VHA, who is someone I have worked with 
closely when I am getting VA staff to speak at these regional 
events, and bring this issue to her attention.
    The other thing, though, is that at every medical center 
there is what is called a minority veterans program 
coordinator, and as an ancillary duty, it is not part of their 
paid job. But every medical center has a coordinator, minority 
mentors program coordinator, who part of their responsibility 
is to do outreach. So maybe sometimes we are not getting the 
information to the right person.
    What would be helpful for my center is if we could find out 
who the faith liaison is at either here in D.C. for every 
congressional office, because then we could at least let them 
know what we are doing and, when we have events, get the 
information to them to say let the faith leaders of your 
community know this is what we are doing, and we can get 
information out that way. That would be one step to kind of 
bridge this divide between at least your Representatives within 
the congressional districts or at least starting here in D.C. 
or in your congressional district. Like there are some people 
that I know in different offices, so I automatically send them 
stuff just because I have known them.
    Mr. Reyes. That tells me that there needs to be----
    Reverend LaVelle. We need to broaden that. I will contact 
the staff of VHA and say this is an idea that came up, how do 
we get some kind of relationship going with your medical center 
directors so they have our information on hand and can 
disseminate it and work more closely with the faith 
communities, and then keep us abreast, and we figure out how to 
help them develop those relationships.
    Mr. Reyes. Especially when, as Congressman Michaud was 
talking about, when it is the rural areas, there are huge gaps 
out there. You are talking about States like Idaho, Wyoming, 
Colorado that have a lot of rural areas. Texas in the panhandle 
and all of--most of West Texas that is not El Paso, that is all 
rural area.
    Lieutenant Commander McCoy. Yes. And, sir, I agree that we 
need--we can expand that. But I think that one of the things, 
that all chaplains in the VA work for a director of a VA 
medical center. So I think with that in mind and with our 
policy from the National Chaplain Center, I have went to many--
several of these events, and the director has been the one who 
has given the opening welcome at the event for the clergy.
    Mr. Michaud. Thank you, Madam Chair.
    Ms. Buerkle. Thank you both very much. I must say I am a 
bit chagrined, and, maybe worse than that, concerned because 
when we did our symposium on faith-based providers and invited 
the clergy, we did have the VA there because we wanted them to 
be able to tell the clergy members what services are available. 
And even the VA didn't mention your offices. They made no 
mention of it at all, that either program existed. I think we 
have a really big disconnect here in knowing what is available 
and what is out there.
    If I could, Chaplain McCoy, I would ask that you provide 
for us the template that you spoke about earlier and the tool 
kit that you spoke about earlier so we can see what it is you 
are doing.
    Lieutenant Commander McCoy. Yes.
    Ms. Buerkle. To make sure we get our veterans the services 
they need.
    Lieutenant Commander McCoy. I will.
    Ms. Buerkle. Thank you both very much for your time and 
answering our questions. You are both excused. Thank you.
    In closing here today, I think that Chaplain Morris said it 
best: we really do need a community effort to make sure that 
our veterans have what they need. We expect and look to the VA 
to be a leading partner in this. That is their mission.
    It is going to be important for all of us to look to our 
communities and make sure every section is covered. And Mr. 
Runyan has left, but I think his comments, and Chaplain Morris' 
comments about employment and making sure our economy gets back 
on track so when our veterans come home, there is a good, 
viable alternative and that they can seek an engaging good job. 
With regard to the universities--those who choose to go back to 
the universities and be educated--that there be that safety net 
that Dr. Rudd spoke of, and that they are equipped to know and 
appreciate and understand what the veterans are up to--and what 
they are up against, I should say.
    With that, I ask unanimous consent that all Members have 5 
legislative days to revise and extend remarks and include 
extraneous material. Without objection, so ordered.
    Ms. Buerkle. Thank you again to all of our witnesses and to 
our veterans who have served our Nation so courageously, and to 
each of our audience members for joining today's conversation. 
This hearing is now adjourned.
    [Whereupon, 6:04 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

             Prepared Statement of Hon. Ann Marie Buerkle,
                   Chairwoman, Subcommittee on Health
    Good afternoon and thank you all for being here.
    Today, we meet to discuss the role of faith-based and community 
providers in helping servicemembers, veterans, and their families 
transition from active-duty to civilian life and the need to foster 
better communication, education, and collaboration between the 
Department of Veterans Affairs (VA) and these critical community 
resources.
    The responsibility of each one of us to `care for those who have 
borne the battle' has never felt so poignant with the brutal toll of a 
decade of war and a bad economy.
    We continue to hear stories of veterans from past conflicts and our 
recently returning veterans from Iraq and Afghanistan struggling to 
find a home, a job, or a helping hand. The need to meet these honored 
heroes where they are and provide them the care, the hope, and the help 
they earned has never felt so immediate.
    As a Nation, we are uniquely blessed to live in a country with a 
rich history of civic pride and responsibility and it is to these 
communities where our veterans return home, have maintained existing 
relationships, and, more often than not, where they first turn for 
help.
    While the primary responsibility for caring for our veterans should 
and does lie with VA, faith-based and community groups are playing an 
increasingly key role in supporting the varied needs of our 
servicemembers, veterans, and their families. They act as a bridge to 
accessing Federal, State, and local programs and services.
    Members of the clergy in particular are often the first point of 
contact with a veteran grappling with the wounds of war. Data from the 
VA National Chaplain Center indicates that four out of ten individuals 
with mental health challenges seek clergy assistance, more than all 
other mental health providers combined.
    We already know that faith-based and community groups can be 
effective in filling known gaps in VA care and supporting the day-to-
day needs of the veteran population.
    However, a district symposium I held in my home district of 
Syracuse, New York, last December, revealed to me a shameful lack of 
communication, collaboration, and coordination between VA and these 
critical community resources. And, subsequently, an urgent need to act 
to establish meaningful partnerships between VA and nongovernmental 
organizations.
    With more of our servicemembers returning home each day, we cannot 
afford to let any opportunity to better support our veterans pass us 
by.
    Where partnerships exist, they need to be strengthened. Where they 
don't, they need to be fostered. For a veteran or loved one in need, 
every door should be an open door.
    Again, I thank you all for joining us this afternoon. I look 
forward to a productive and ongoing conversation.

                                 <F-dash>
             Prepared Statement of Hon. Michael H. Michaud,
           Ranking Democratic Member, Subcommittee on Health
    I would like to thank everyone for attending today's hearing. This 
hearing is intended to open up the broader thought process and better 
understand how the VA and community organizations collaborate to 
support veterans and their families.
    More than 2 million servicemembers have been deployed since 
September 2001, with hundreds of thousands of them being deployed more 
than once. As of February 2012, more than 6,000 troops have been killed 
and over 47,000 have been wounded in action in the recent conflicts.
    When these servicemembers come home and take off the uniform, many 
of them have the expectation that life will just pick up where it left 
off before being deployed. However, this is just not the case.
    Many of them struggle to reconnect with their families and 
communities. They find themselves feeling isolated and unable to cope. 
The Department of Veterans Affairs reports that half of the OEF/OIF/OND 
population that has accessed VA health care sought mental health 
treatment.
    Post-traumatic stress disorder is the number one reported mental 
health concern among this population. With so many OEF/OIF/OND 
servicemembers and veterans experiencing psychological wounds, reports 
suggest that there is an increase in the rates of suicide, alcohol and 
drug abuse, homelessness, and domestic violence.
    For this reason, it is essential that our servicemembers, veterans, 
and their families receive the help they need and that they have the 
necessary tools to rejoin their communities. These tools, programs, and 
resources would not be possible without the thousands of community 
organizations across the country that work in partnership with the VA.
    At this hearing, I want to hear more about the reintegration 
challenges that servicemembers and veterans face, as well as the 
challenges the VA and community organizations face in providing support 
services. And we need to identify potential solutions to these barriers 
and how we can strengthen these partnerships.
    Despite historic increases in VA funding over the past 5 years, as 
the Nation prepares for the influx of returning veterans, reintegration 
efforts are simply not possible without collaboration between the 
Federal Government, business sector, and nonprofit organizations. And 
more needs to be done to facilitate these partnerships.
    I would like to take the time to thank our panelists for being here 
with us this afternoon and for the work that you do every day to 
support our Nation's veterans. I would especially like to thank Mr. 
Morris and Mr. McCoy for their service as Chaplains in the Minnesota 
National Guard and at VA's National Chaplain Center, respectively.
    In 2009, I lead a Congressional delegation to Afghanistan and came 
to learn that our servicemembers rely immensely on their chaplains for 
emotional support. And on every visit since, I've come to respect the 
unique insights that our chaplains possess in terms of mental health, 
spiritual guidance, and the overall well-being of our service men and 
women.
    I look forward to hearing from all of our distinguished guests 
today. Thank you, Madam Chair, and I yield back.

                                 <F-dash>
              Prepared Statement of Hon. Silvestre Reyes,
               Democratic Member, Subcommittee on Health
    Thank you Chairwoman Buerkle and Ranking Member Michaud for 
convening this hearing.
    Over the past decade, our Nation has seen the effects of two wars 
in both Iraq and Afghanistan. Over 2 million servicemembers have been 
deployed to these regions during that time period and have selflessly 
served our Nation. These brave men and women and their families have 
endured a lot.
    After completion of their honorable service, many of these men and 
women will leave our military and return to civilian life. The process 
of reintegration into the local community is nothing new, as we have 
had countless numbers of veterans leave military service over the years 
to seek civilian employment.
    Unfortunately, this process of reintegration has not always gone 
smoothly. Many Vietnam veterans did not receive the care and respect 
they deserved once they left the military. This cannot occur with our 
veterans today. Therefore, we must ensure that our servicemembers, 
veterans, and their families receive the help they need and that they 
have the necessary tools to re-join their communities.
    Reintegration is a cooperative effort among the Federal Government, 
the business sector, and community organizations, ensuring that our 
veterans are welcomed back into the local communities where they can 
contribute as proud, hard-working citizens. They must receive the care 
and consideration they have earned.

                                 <F-dash>
              Prepared Statement of Andrew Davis, Veteran
    Good afternoon, Chairwoman Buerkle, Ranking Member Michaud and 
Members of the Committee. Thank you for the invitation to discuss the 
role of community providers and faith-based organizations in helping 
servicemembers transition to civilian life and the need to foster 
better communication, education, and collaboration between The U.S. 
Department of Veterans Affairs (VA) and these resources.
    My name is Andrew Davis, and I am currently the Director of the 
Saratoga County, NY Veterans Service Agency and the Founder of the 
Saratoga County Veterans Resource Initiative. I have been a Veterans 
Advocate since separating from service in 2004. I served as a United 
States Army Ranger for 5 years to include two tours of duty in 
Afghanistan and one in Iraq.
    Upon returning to my home in Minnesota to further my education, I 
was faced with my first taste of how little I knew about being a 
veteran. In fact, like many of my peers, I was unsure if I even was a 
veteran. Because of this, I founded a non-profit veteran support 
organization on the campus of the University of Minnesota to aid 
returning veterans in connecting with earned benefits and services. In 
later roles as a congressional staffer and Department of Defense 
Transition Assistance Advisor I saw firsthand the disconnect between 
veterans, their families, and the systems that are intended to support 
them. For the past 3 years I have spent my career as a veterans 
advocate either training accredited benefits counselors or being one 
myself. This has provided me a frontline view of what is lacking in 
outreach and networked support to our veterans and their families.
    Last, I am currently an enrolled patient with the Veterans Health 
Administration (VHA) in VISN-2 and use both the Albany-Stratton 
Veterans Administration Medical Center (VAMC) and the Clifton Park, NY 
Community-Based Outreach Clinic (CBOC) regularly.
Opening Remarks:
    Veterans and the ways they serve have changed significantly over 
the last decade, resulting in the need for changes in the way our 
country, in turn, serves them. The veterans of today tend to be more 
geographically dispersed and more mobile than previous generations. 
Families and communities are affected and changed differently than ever 
before with multiple deployments and the unique use of the guard and 
reserve. Many of these individuals suffer from the lack of a ``Fort New 
York'' or central support system, making the local community even more 
crucial in the reintegration process.
    Despite a constant bombardment of media in all forms that affords 
the public access to our current wars, issues facing our neighbors, 
friends, family members and other local veterans are often invisible to 
us as communities. Add to this, a military culture that can encourage 
emotional toughness and self sufficiency, and we face a large potential 
public health problem.
    Last, the uniqueness that makes our military and our veterans 
population great, also means that there is not a one-size-fits-all 
support system that can be created nationwide. We must garner community 
support and use community resources to serve our veterans and their 
families completely.
Accessing Traditional Veterans Resources:
Issue
    First and foremost, the population of veterans that find their way 
into the VA system of care or benefits delivery system, merely by 
accident, is staggering. I can safely say that approximately 5-7 
veterans knock on our door weekly for some form of unrelated government 
service(s) to find that they are eligible for veterans benefits because 
of their service to this Nation. Just last week a young Marine with two 
tours of duty in Afghanistan appeared in my office asking for 
directions to the office that handles unemployment benefits. This 
Marine outlined, that although his home of record on his discharge 
stated Saratoga Springs, NY, he had no idea who his local contacts in 
Veterans Services were, or where he could take advantage of his 5 years 
of free health care from the VA. Nobody, from his pastor, to his 
friends and family in the community knew how to connect him to his 
earned benefits and services. If this Marine hadn't knocked on the 
``wrong'' door he would not have met with my staff to turn on his GI 
Bill benefits or learn where he could enroll in health care.
    By all appearances, the U.S. Department of Veterans Affairs has 
recognized the need for community outreach but holds their hopes in the 
idea that top down, one sided information will filter down to the 
grassroots folks at the bottom. For example, in the VISN-2 area of 
upstate NY, a few competent and well trained veterans justice 
coordinators have been hired and put in place. However, the operative 
words here are ``a few veterans justice coordinators.'' These people 
are responsible for numerous counties and for interacting with courts, 
district attorney's and law enforcement, when in fact the police 
officers on the beat and on our streets and highways are where the 
first difference can be made.
Solution
    The correct mindset for reaching veterans must transition to a ``no 
wrong door'' approach. This can and should be created through a 
localized, national training by VA, Veterans Advocates and other 
experts to all members of local communities. These newly created 
``Veteran Friendly Communities'' would have the tools to make referrals 
to the proper resources whether a veteran walks into a rectory, a tax 
assessor's office or is pulled over during a traffic stop.
    Additionally, outreach and assistance programs cannot be 
reactionary in nature. The time to begin helping a veteran in legal 
trouble for example, is upon first interaction, not just at sentencing. 
In fact, in my own transition, it was a police officer who pulled me 
over for driving in Minneapolis like I had in Hadithah and Bagram that 
introduced me to my first veterans advocate and helped me realize that 
difficulty transitioning was normal. Additionally, I now receive as an 
accredited service officer, a large number of referrals from local 
police officers that I call my friends.
Local Solutions to a National Issue:
    While much of our conversation has always revolved around what VA 
and DoD does, can do and should do better, the reality is that much of 
the care delivered to veterans in NY and across this country is done 
through private providers and other not for profit and public sector 
providers or other forms of government assistance. By urging VA to 
reach out to these providers, a referral and information sharing system 
can be implemented to ensure veterans are maximizing their earned 
benefits and services.
    As a veterans advocate, I can and do certainly play a role in 
culling these local resources. For example, we have created the 
Saratoga County Veterans Resource Initiative, which gathers local 
elected officials, college administrators, veterans advocates, private 
mental health providers, non-profits and others on a quarterly basis to 
familiarize all with what we do and how referrals can work between 
organizations. However this is an uphill climb for us because the 
impression that most of the citizenry has, is that taking care of 
veterans is solely a VA or Federal Government role. When in reality the 
transition back to civilian life is a community process. I believe this 
to be caused by the generally one-sided dissemination of information by 
the VA to the general public as opposed to community engagement.
Local Engagement Opportunities:
1.  The VA has in place a network of county and State veterans benefits 
counselors that when given a level of training and funding, can and 
should serve as community liaisons. While the U.S. Department of 
Veterans Affairs may be our Nations experts on veterans related issues, 
our community leaders will be who brings veterans back into the fold of 
everyday life. My experience as a veterans advocate has been that the 
information sharing is largely one-sided from the VHA to us with little 
opportunity to engage with the Veterans Benefits Administration (VBA) 
and the VHA on real issues and improvements. Veteran's advocates are on 
the ``front lines'' doing a large amount of VA's enrollment and 
benefits delivery and are a valuable and many times an undervalued 
asset.
2.  Our country is filled with competent mental health care 
professionals that are constantly volunteering to treat and see 
veterans. VA reluctance to use these community-based providers in many 
instances turns veterans and their families away from treatment at all. 
VA should look for ways to engage these highly trained professionals so 
veterans can be treated comfortably in their community.
3.  In our county's communities, local law enforcement, clergy and 
educators have been more than willing to learn about veterans issues 
and provide referrals to care and benefits. This is merely the first 
step, but giving those who are willing and able to help an education 
can go a long ways in figuring out where the legitimate gaps are in the 
Federal systems. Simply put, existing organization many times do not 
realize they are already serving veterans. Understanding veterans 
perspectives and service needs will improve the overall delivery of 
benefits and services at all levels.
4.  Associations such as PBA's, Association of Sheriffs, First 
Responders and Firefighters typically meet annually and regionally. In 
both Minnesota and New York we have had little difficulty getting in 
front of these groups to introduce ourselves and what we do as 
advocates. The VA should be at these events to not only help veteran 
members, but to continue to expand their ``free'' outreach team.
5.  The VA has come a long ways in a short amount of time in the use of 
technology, social media and non-traditional forms of outreach. 
However, VA must continue to leverage these resources at a localized 
level to engage a new generation of veterans who is mobile and tech-
savvy.
6.  The VA can work together with service organizations with mutual 
benefit to VA, veterans and local posts and chapters to modernize an 
out-dated model. Veterans of this generation no longer find themselves 
gathering in mass at their local Legion, but instead gathering via 
Facebook and Skype. However, the power of gathered voice and advocacy 
these national organizations provide could be crucial if used properly.
7.  The VA's implementation of MyHealtheVet and E-Benefits portals is a 
step in the right direction, but the centralized and physical nature of 
enrollment have made it difficult for a financially and employment 
challenged veterans population to take advantage of these systems. 
Providing enrollment in the community or even outsourcing enrollment to 
CBOC's and accredited veterans advocates would assist in these matters 
greatly.
8.  My experience to date has shown me that VA employees in any part of 
the VA lack a basic understanding of local and State benefits and 
services. These can range from veterans property tax exemptions like we 
have in NY to local transportation to medical appointments. Not only 
are the numerous people taking advantage of these benefits a good place 
to find potential patients and enrollees, but they are simple, quality 
of life benefits that can really help a veteran engage the system for 
the first time.

Conclusion:

    In sum, we as a Nation must stand committed to ensuring that 
sustainable and quality supportive services are accessible to veterans 
and their families' right in their communities. I believe this can be 
done leveraging resources that largely already exist and in a cost 
effective manner. The VA has the geographical disbursement and 
expertise to lead this charge, but must think outside the box and look 
to those who are ready and willing to assist in our own backyards. The 
requirements to make this successful are not numerous. In many cases 
putting outreach staff at community events is all it will take. We must 
begin immediately leveraging relationships and expertise that has long 
existed.
    Thank you again to the Committee for allowing me to speak to these 
important issues.

                                 <F-dash>

             Prepared Statement of Chaplain John J. Morris

    Chairman Buerkle, Ranking Member Michaud, distinguished Members of 
the Subcommittee, I am honored to appear before you today.
    I am the State Chaplain for the Minnesota National Guard. I am the 
co-founder of the Beyond the Yellow Ribbon initiative. I have spent the 
last 7 years of my military service facilitating the collaboration of 
the Minnesota National Guard, faith-based and community organizations 
and the VA resources of the Midwest VA Health Network (VISN 23) to 
support the reintegration of over 20,000 Minnesota National Guard 
combat veterans.
    I am a consumer of VA medical care as an enrolled veteran with the 
Minneapolis VA. I am the father of two combat veteran daughters who are 
receiving medical care through the VA system.
    I am an ardent supporter of the VA and the resources it provides to 
our veterans.

The Minnesota National Guard Beyond the Yellow Ribbon Collaboration 
        With the VA

    In 2005 Major General Larry Shellito, then Adjutant General of the 
Minnesota National Guard, hired me to create a reintegration program to 
help the Minnesota National Guard combat veterans successfully 
transition from warriors to productive citizens.
    The first institution we turned to for help was the Minneapolis VA 
medical center. We wanted our veterans to receive medical care if 
needed and benefits if earned. We knew that the demobilization process 
used at that time was ineffective in connecting veterans with the VA 
process. We were concerned that a majority of our veterans would not 
access all that was available to them in terms of VA services.
    We found a very willing partner in the Minneapolis VA medical 
center. Our partnership grew to include the VA medical centers in St. 
Cloud, MN; Fargo, ND; Twin Ports in Superior, WI and Sioux Falls in SD. 
We expanded our partnership to include the Vet Centers in Fargo, ND; 
St. Paul, MN; Sioux Falls, SD and Duluth, MN. Today we enjoy a close 
collaboration with the leadership of VISN 23 and all the VA entities in 
Minnesota.
    We have successfully collaborated with the VA on the following 
initiatives in support of our returning combat veterans:

 1.  Expedited enrollment of our demobilizing soldiers, at their 
demobilization site, by MN VA personnel. This is insures our veterans 
are enrolled in the VA in the catchment area they live in and they are 
provided initial appointments.
 2.  RINGS 1 and RINGS 2, (Readiness and Resilience in National Guard 
Soldiers), Research studies on the soldiers/families of the 1st 
Brigade, 34th Infantry Division. These longitudinal studies have 
focused on the role of the community in facilitating successful 
reintegration and mitigating the effects of combat stress.
 3.  Collaborative training of local clergy utilizing VA Chaplains and 
Vet Center staff.
 4.  Collaborative training of Minnesota Army National Guard Chaplains 
and Chaplain Candidates in Clinical Pastoral Education utilizing the 
Supervisory Chaplain of the St. Cloud, MN VA. We have trained 15 
chaplains and chaplain candidates, to date.
 5.  VA Behavioral Mental Health providers from the OIF/OEF outreach 
clinic providing satellite service at Camp Ripley, MN during annual 
training periods of the Minnesota Army National Guard.
 6.  Vet Center Staff and VA OIF/OEF outreach personnel present at 
every Minnesota National Guard reintegration event, pre- and post-
deployment.
 7.  Minneapolis VA Suicide Prevention Specialists regularly provide 
training to the Minnesota National Guard and participate in clergy 
outreach training with the Minnesota National Guard Chaplain Corps.
 8.  The Minneapolis VA Polytrauma Center Staff provided training for 
the 34th Infantry Division Command and Staff prior to their deployment 
to Iraq in 2009.
 9.  The Recruiting Command of the Minnesota Army National Guard 
provides soldiers trained by the Minneapolis VA to visit wounded 
warriors in the Minneapolis VA polytrauma unit.
10.  The Vet Centers of Minnesota have collaborated with the Minnesota 
National Guard to provide training for marriage and family therapists, 
as well as licensed social workers, and psychologists at community 
outreach events hosted by the Minnesota National Guard Beyond the 
Yellow Ribbon program.
11.  The Minnesota National Guard and the Minneapolis Regional Pension 
and Disability Claims Office work collaboratively to provide the medial 
records of soldiers seeking disability compensation.
The Minnesota National Guard Beyond the Yellow Ribbon Program and 
        Community Partnerships
    The underlining operating principle of the Minnesota National Guard 
reintegration initiative, (also known as, ``Beyond the Yellow Ribbon'') 
is that it takes the entire community to help a warrior return from 
war, reunite with his/her family and resume a productive life as a 
civilian. Consequently, while partnering with the VA the Minnesota 
Guard has also worked to partner with business, social service, 
education, and faith-based organizations in every community in 
Minnesota that is host to National Guard facility.
    The Beyond the Yellow Program, under the purview of Governor 
Pawlenty (2005-2010) and Governor Dayton (2011-present), thru the 
Minnesota National Guard as program manager, has a formal process for 
synchronizing the services of Federal, State and county agencies for 
the benefit of returning combat veterans and their families. In 
addition the program provides training for community organizations on 
how to support military members, veterans and their families. To date 
twenty-five Minnesota communities have been certified by the Governor's 
office as `Yellow Ribbon' communities. The program synchronizes the 
good will and services of the agencies of the government and community 
organizations to support military families during the duress of 
deployments and the returning combat veteran during reintegration, post 
combat.
    We have garnered tremendous support for our military families and 
returning combat veterans. The Beyond the Yellow Program has 
synchronized the agencies of the Federal, State, and local government 
with the services of our communities to result in providing the support 
needed by our military families. This has resulted in more productive 
combat veterans and reduced pathology as demonstrated by the VA's Rings 
1 study.
The Challenges and Opportunities the Beyond the Yellow Ribbon Program 
        Presents for the VA System
    The VISN 23 VA organizations and institutions have been significant 
partners in our Beyond the Yellow Ribbon initiative. I believe they 
could play even more significant roles. They have vital information to 
share with civilian medical providers, clinical social workers and 
faith-based leaders. They have expertise to share with community-based 
organizations. The involvement of the VA and their synchronization into 
Beyond the Yellow Ribbon reintegration efforts will enhance the 
initiative and result in healthier combat veterans and their families.
    There are significant challenges to overcome, however, in order for 
the VA to truly be a `community partner.' I will outline those 
challenges:

1.  Perception and Stigma.--My experience with community leaders has 
been that they perceive the VA to be a distant and closed institution. 
By virtue of the fact that relatively few citizens are veterans most 
Minnesotans have no experience with the VA, thus the `mystery' 
surrounding the institution. Combined with anecdotes shared by the 
media of controversy with the VA, (e.g., inadequate care, lack of 
resources, theft of computers resulting in Social Security numbers of 
veterans 
being lost, etc.) and perception becomes reality in the minds of communi
ty leaders.
2.  Institutionalism.--The VA is a Federal bureaucracy. Consequently, 
its system is foreign to outsiders. This is a significant bar to 
inclusion in community outreach and synchronization of services with 
community-based organizations. I can illustrate this in several ways:
     a. 
        The Minneapolis VA has a world-class polytrauma unit providing 
the finest medical care to our most severely injured warriors. It has 
deservedly received positive media coverage and accolades. However, on 
numerous occasions, when community organizations have wanted to donate 
goods, gifts and goodwill to the families/wounded warriors they have 
met with hurdles too high to overcome. At the core of the problem is 
HIPA. The VA's understandable need to protect truly vulnerable wounded 
warriors' results in them being shut off from the support of the 
community. I have personally witnessed this on at least a dozen 
occasions. From inability to donate professional sports team tickets to 
wounded soldiers to the recent inability of Best Buy Corporation to 
personally deliver care packages to wounded warriors the community is 
shut off from working closely with this world class program.
     b. 
        The VA is not staffed to conduct effective community outreach. 
While mandated to provide training for civilian providers and clergy I 
have personally attended ten VA outreach events, none of which was able 
to garner more than a handful of community members. The VA does not 
know how to effectively meet, greet and share with the community the 
tremendous work they do and the wonderful services they offer.
     c. 
        The VA appears to lack a means to share their vast experience 
of working with veterans with their civilian counterparts in the fields 
of medicine, behavioral mental health and faith-based institutions. An 
example would be the growing body of knowledge surrounding traumatic 
brain injury. Health care providers in the greater community need to 
know what the VA knows about this wound, its symptoms, impact and 
treatment. Symposiums, media messaging, training outreach events and 
community forums would be ideal means for transmitting the VA 
experience to the greater community. To date, I know of few of these 
events. In a similar vein VA chaplains have much to share with their 
colleagues in the civilian community.
     d. 
        The VA lacks the means to connect returning wounded warriors, 
that have received in patient care in their hospitals, with the greater 
community. I have personally witnessed four severely injured OIF/OEF 
veterans struggle tremendously in readjusting within the community, 
post VA care. They were isolated and the VA social worker was unable, 
due to large case load, to meet often enough with the veteran to help 
them connect successfully to community.
PROPOSED SOLUTIONS
    In Minnesota the simplest way to address the issues I have outlined 
would be for the VA, in all of its configurations, to become an 
official Beyond the Yellow Ribbon partner under Governor Dayton's model 
of partnership.

-- Have the VA receive the community training all community leaders 
receive and have the VA meet all the program requirements that other 
partners in the community meet.
-- Have VA leadership join their civilian colleagues at Beyond the 
Yellow Ribbon community leaders' events.
-- Have the VA partner with community and faith-based organizations for 
more effective synchronization of support for veterans and military 
families.

    In the area of working with faith-based organizations the VA needs 
to invite faith-based leaders onto their campuses and into their 
facilities for orientation tours, seminars and collaborative sharing of 
information about the needs of veterans and pastoral care of veterans.
    Minnesota is blessed to be the home of four major theological 
seminaries that train faith-based leaders. The VA would be well served 
to introduce itself to the leadership of the seminaries and to find 
ways to partner in the sharing of knowledge.

-- Have the VA officially partner with the Guard leadership in each 
State. In Minnesota the Adjutant General, Major General Nash, has a 
personal relationship with the VA Medical Center directors in 
Minneapolis, MN; St. Cloud, MN and Fargo, ND. He has been in their 
facilities and knows their capabilities. He has personally authorized 
the Rings 1 and 2 studies of his soldiers. He monitors the results of 
the study and insures its findings inform the best practices of the 
Minnesota National Guard. He has invited the VA to the drill floors of 
his units and relies on the VA for the first class service they can 
provide. This type of senior leader partnership results in great access 
to service, smoother facilitation of the claims process and greater 
care of veterans. This could be replicated nationwide.
-- In times of fiscal austerity the Fischer Houses of the VA system 
could easily synchronize their efforts with the Family Programs Office 
of the Guard. This would result in the families of veterans residing at 
the Fischer Houses receiving the good will of the communities that 
flows through the Family Programs of the Guard. The Guard, as America's 
local military force, most immediately receives the support of the 
community. The Guard Family Programs has access to community resources 
that the Fischer Houses need, but often have to find on their own, with 
limited knowledge of the local community capabilities. Collaboration 
saves money, helps families and enhances the effectiveness of the VA 
and the Guard Family Programs.
Closing Remarks
    In closing I would like to reiterate my support and admiration for 
the men and women of the Veterans Administration. As a veteran I know 
we are truly blessed by their service. I believe they have a vital role 
in the reintegration of our veterans and welfare of the families of our 
veterans. I believe the VA's effectiveness can be increased by its 
inclusion in our greater community and enhanced collaboration with all 
segments of the community that seek to support our military families 
and combat veterans.
    I appreciate the opportunity to be here today and invite your 
questions and comments.

                                 <F-dash>
        Prepared Statement of Shelley MacDermid Wadsworth, Ph.D.
    Chairwoman Buerkle, Congressman Michaud, and distinguished Members 
of the Committee, thank you for convening this hearing today and for 
inviting me to share my thoughts about ``Building Bridges between VA 
and Community Organizations to Support Veterans and Families.''
    I am proud to be a faculty member at Purdue University, the land 
grant institution for the State of Indiana. I am also proud to direct 
the Military Family Research Institute and the Center for Families at 
Purdue. Each of those organizations works to address all three missions 
of the university: generating new research knowledge, helping students 
to learn, and most important for this hearing, reaching beyond the 
campus to collaborate with others to solve community challenges. I will 
speak today based on my own experiences and those of my staff, however; 
I am not speaking on behalf of the university.
    The Military Family Research Institute (MFRI) was created at Purdue 
in 2000 through funding awarded competitively by the Department of 
Defense's Office of Military Community and Family Policy. Today we 
continue to have significant funding from DoD and other Federal 
sources, but are funded primarily by private philanthropy. I mention 
this because it is this funding that has made it possible for us to 
invest so heavily in community collaborations. Our mission is to `make 
a difference for families who serve.'
    We are located in West Lafayette, Indiana, which is in VISN 11, 
along with parts of Michigan, Illinois, Indiana, and Ohio. I am pleased 
to be able to report that MFRI is engaged in many collaborations with 
organizations in the civilian, military, and veteran communities. We 
carry out an average of more than one event or activity each week aimed 
at helping to make our State a better place for military and veteran 
families. Our recent collaborations involving VA partners include the 
following:

    a. With regard to homelessness, in November 2011, as part of our 
university's participation in President Obama's Interfaith and 
Community Service Campus Challenge, we organized the first Stand Down 
for homeless and nearly homeless veterans in our community, and the 
first organized by a university in our State. More than 100 community 
organizations participated, including both campus and community faith-
based groups, and more than 100 student volunteers, including students 
from Hospitality and Tourism Management who managed food service, and 
students from the School of Nursing who provided an onsite health 
clinic guided by several of their faculty including a military veteran. 
A number of VA entities joined in this effort, including 
representatives from the Illiana Suicide Prevention, Healthcare, and 
Minority Programs offices. VA Roudebush Medical Center sent 
representatives, as did VA benefits, and a VA Mobile Veteran Center. We 
were very pleased at this initial effort and are seeking out 
collaborators to make this a statewide effort with Stand Downs in 
several communities leading up to Veterans Day 2012.
    b. As researchers, we are collaborating with VA colleagues in 
Minneapolis and Ann Arbor, working together to obtain funding and 
gather data.
    c. In the area of higher education, we work with colleges and 
universities throughout our State to help them strengthen their 
supports for student servicemembers and veterans. In that capacity, we 
work closely with VA certifying officials, the Indiana Commission on 
Higher Education, institutional leaders, the Servicemembers Opportunity 
Colleges, and others.
    d. In the area of vocational rehabilitation, we work with the 
Career Learning and Employment Center, a pilot project set up in our 
State as a collaboration established initially between community 
groups, the Crane Naval Station and the NAVSEA command, VA vocational 
rehabilitation officials, and several State offices. This project for 
which we are the evaluation partner, helps servicemembers who must 
leave their military careers because of life-altering wounds or 
injuries, transition to education and employment in an environment of 
full support and assistance for their families and themselves as they 
relocate, enter or re-enter educational training, leave their military 
careers, and begin new jobs as civilians.
    e. In the area of behavioral health, we serve as a training partner 
for the Indiana Veterans Behavioral Health Network. Funded by a grant 
from the Health Resources and Services Administration, IVBHN is a 
network of community-based behavioral health clinics working to extend 
services to rural veterans using telehealth technologies. We also are 
working together to create a designation for agencies to indicate to 
military and veteran families that providers within the agency have 
received significant training in working with that population, to 
complement a training system and registry we have already created with 
the Indiana National Guard to improve the behavioral health 
infrastructure in our State. VA collaborators include the Department of 
Mental Health Patient Care Services, the Psychiatry Ambulatory Care 
Clinic, the Seamless Transition Clinic, and the Information Technology 
Department at Roudebush VA Medical Center, as well as the VISN 11 
Medical and Information Technology staff.
    f. Finally, in the area of outreach, we work closely with the 
Seamless Transition Team at the Roudebush VA Medical Center to 
implement an annual statewide meeting focused on growing awareness, 
motivation, and skills among helping professionals in a variety of 
communities to support veterans and their families. In September 2011, 
this meeting was attended by over 250 professionals from Indiana, 
Illinois, and Kentucky. The Indiana National Guard director of family 
programs reported that his staff described this as the best training 
event they had attended in many years.

    Based on these experiences, what are some lessons we've learned 
about successful collaborations between community organizations and the 
VA?

    First, there are great opportunities for success, and I know that 
there are success stories happening around the country. I have been 
pleased by the enthusiasm we have experienced from many of our VA 
partners.
    Second, all of the successful partnerships we know involve partners 
who have come to know and trust each other. Until partners know each 
other well enough, it is difficult to trust. Without trust, it is very 
hard to collaborate. It can take several years to exchange sufficient 
knowledge and build sufficient trust to be willing to embark on a more 
extensive collaboration. Without that ground work, it is much less 
likely that the collaboration will be successful and sustainable.
    Third, we have learned that mutual transparency, responsiveness, 
and accountability are important for successful collaborations. Each of 
these of course ties back to basic trust--perhaps `trust but verify' is 
an apt phrase.
    Fourth, we think successful collaborations do a good job of taking 
advantage of each organization's unique strengths. MFRI contributes 
something different to each of the collaborations I described earlier--
sometimes our research expertise, sometimes our skills as educators, 
sometimes our convening power, and in each case our VA partners are 
contributing expertise that complements ours.
    Fifth, I believe that successful collaborations result when each 
partner can enthusiastically pursue their self-interest while they work 
together to achieve a shared goal. Collaborations that require one or 
both partners to work against their self-interest will not last long.
    Sixth, in the spaces in which we operate, cultural translators are 
very important. Partners who can explain military or veteran 
experiences and culture to civilians, or who can explain the 
environment within which civilian community organizations operate to 
members of military or veteran organizations, play key roles in helping 
collaborative partners learn to see the world through one another's 
eyes.
    A final ingredient for success is leadership, but we believe that 
it may be servant leadership that is the most important. At MFRI we 
believe that leadership is as much about taking and distributing 
minutes, arranging meetings, and sending out reminders as it is about 
crafting vision and facilitating strategic planning. We are just as 
happy to try to be the glue that holds initiatives together and the 
lubricant that keeps them moving forward, and we are fortunate to have 
found funders who share our belief.

    Although the scientific literature about collaborations among 
community organizations or with the VA is quite limited, the studies 
that are available reinforce our observations. For example, one study 
of collaborations between faith-based and health organizations found 
that passion and commitment for their shared goals, mutual trust and 
respect, and the convening power of faith-based organizations were seen 
as key to their success (Kegler, Hall, & Kiser, 2010).
Policy-Related Challenges and Barriers
    What about the challenges and barriers that make it difficult for 
community collaborations with the VA to become established or 
successful? Many of these are no doubt familiar to you.
    The landscape both inside and outside the VA can be very crowded 
and confusing. Prospective community partners, particularly those 
located at a physical distance from the VA facility with which they 
would like to collaborate, can find it very difficult to determine whom 
in the institution to approach. As a test, I conducted a search for the 
word `collaborate' on the main VA Web site, which yielded a single hit, 
for the Center of Excellence on Implementing Evidence Based Practice. 
From vantage points inside the VA it may be just as difficult, again 
particularly in far-flung communities. The not-for-profit sector is 
full of agencies with alphabet-soup names, sometimes with considerable 
turnover, and idiosyncratic local variations. VA professionals are 
understandably wary of showing favoritism to particular organizations, 
getting involved with organizations that might prove unreliable, or 
taking time away from other duties to establish and maintain community 
partnerships. These challenges could be reduced by making sure that 
there are clear points of entry and information for prospective 
collaborators on key Web sites, and some regular mechanism for 
prospective partners and VA leaders to learn about one another.
    There are structural barriers to collaboration. For researchers, 
these come in the form of requirements that projects involving the VA 
be led by VA researchers. For all collaborators, a serious barrier is 
the inability to share data. Sometimes this impediment makes it very 
difficult to connect VA patients and their families with community 
services; for researchers, it is very difficult to gain access to data 
for analyses. In our work with higher education, we have found it very 
difficult to get information about schools in our State, or even our 
State as a whole, because only data aggregated across an entire region 
are available. We have also found it very challenging to secure answers 
to questions from at least one office, even though some of the 
information we are seeking is not at all sensitive and could probably 
be made publicly available on the Web. Community collaborators find it 
very frustrating when they train up to increase their capacity to serve 
military and veteran families, but then can never find any of those 
families to serve nor be sure those families will learn about their 
availability. This is especially frustrating when it is so clear that 
there is far more work to do than the VA can handle alone. I'm not 
certain how this problem can be solved, but I believe it is resulting 
in a staggering waste of resources, with more work to do than the VA 
can manage by itself, servicemembers and families who want help, and 
community partners who want to be of use, all separated by gaps and 
barriers that should be avoidable. We are working on a collaboration 
with the Indiana National Guard that is aimed at addressing this 
problem for military families, but the challenge for veterans is much 
larger and even more complex.
    Of course securing resources is always a challenge. Community 
collaborators may not have excess capacity sitting unused on the shelf 
that can easily be diverted to military or veteran families, and need 
to know that if they incur expense to serve servicemembers and veterans 
that they can recoup those costs. While DoD and VA have seen their 
budgets grow significantly in recent years, many community-based not-
for-profits have seen their resources decline. VA professionals who 
want to collaborate with community partners may have to do so `out of 
their back pockets' and on top of their regular duties. Building the 
bridges of collaboration that you seek will require resources, and 
ideally those resources will be made readily apparent to community 
partners so that proposals can be solicited, evaluated, and selected. 
Ideally, resources will be structured to provide tangible incentives 
and benefit to community and VA partners who collaborate effectively.
    It has been our great honor to work to make a difference for 
military and veteran families. We are inspired by the commitment and 
dedication shown by military and veteran professionals in many sectors 
who share that mission, and we are eager to continue collaborating to 
make positive change. Thank you for all you do to try to make sure that 
our Nation's veterans receive the care and support they have been 
promised.
                               References
    Abdul-Adil, J., Drozd, O., Irie, I., Rachel, R., Alexis, S., A, 
F.D., et al. (2010). University-community mental health center 
collaboration: Encouraging the dissemination of empirically based 
treatment and practice. Community Mental Health Journal, 46, 417-422.
    Garrow, E., Nakashima, J., & McGuire, J. (2011, March). Providing 
human services in collaboration with government: Comparing faith-based 
and secular organizations that serve homeless veterans. Review of 
Religious Research, 52(3), 266-281.
    Gray, B. (1989). Collaborating: Finding common ground for 
multiparty problems. San Francisco: Jossey-Bass.
    Guo, C., & Acar, M. (2005). Understanding collaboration among 
nonprofit organizations: Combining resource dependency, institutional 
and network perspectives. 34(3).
    Kauffman, L. (2010, July). Veterans Rural Health Resource Center--
Western Region: Fostering innovations in mental health care for rural 
veterans. NARHM Notes, 2(1). National Association for Rural Mental 
Health.
    Kegler, M.C., Hall, S.M., & Kiser, M. (2010, Aug. 9). Facilitators, 
challenges and collaborative activities in faith and health 
partnerships to address health disparities. Health Education and 
Behavior, 37, 665.
    Kudler, H., Batres, A.R., Flora, C.M., Washam, T.C., Goby, M.J., & 
Lehmann, L.S. (2011). The continuum of care for new combat veterans and 
their families: A public health approach. In Combat and Operational 
Behavioral Health (Ch. 20). Borden Institute. http://
www.bordeninstitute.army.mil/published_volumes/combat_operational/ CBM-
ch20-final.pdf.
    London, S. (1995). Collaboration and Community. Scott London.
    MOAA-Zeiders Enterprises. (2011). Wounded warrior and family-
caregiver support: DoD-VA-Community collaborations. Roundtable 
Discussion Summary.

                                 <F-dash>
            Prepared Statement of M. David Rudd, Ph.D., ABPP
    Good afternoon, Chairwoman Buerkle, Ranking Member Michaud, and 
Members of the Subcommittee. I greatly appreciate the opportunity to 
testify on behalf of the National Center for Veterans Studies at the 
University of Utah and the countless American veterans that have served 
and sacrificed. I want to thank Chairwoman Buerkle for providing much 
needed leadership on an issue that will become increasingly important 
given the end of combat operations in Iraq and the planned reduction of 
forces in Afghanistan. The successful reintegration of many of our 
troops into civilian life will require thoughtful and coordinated 
efforts between the Department of Veterans Affairs (VA) and community 
organizations, with communities of faith offering particular promise. I 
am grateful for Chairwoman Buerkle's efforts to draw attention to the 
problem of reintegration, particularly given that there is an 
intellectual and emotional disconnect between those that have served 
and the rest of society. Since the Gulf War, less than 1 percent of 
Americans have served in the armed forces, a dramatic shift from World 
War II (almost 9 percent), Korea, and Vietnam (both greater than 2 
percent). The remarkably small number of Americans choosing to serve in 
the Armed Forces compounds the potential for misunderstanding.
    As a veteran of the Gulf War era and a clinical psychologist, I am 
keenly aware of the issues faced by servicemembers both engaged in 
combat and returning from war. Over the last decade, I have been 
involved in the treatment of servicemembers experiencing emotional and 
psychological problems secondary to combat and serving during wartime. 
In particular, I have directed treatment research focusing on active 
duty servicemembers that have made suicide attempts. Although my 
research is only partially complete, what has become clear is that many 
servicemembers (and families) need assistance in order to make a 
successful transition from military life. My work has been focused on 
that portion of the veteran population that has struggled and 
experienced emotional and psychological problems. It's important to 
point out, though, that this is only a portion of the population, with 
many making a seamless transition to civilian life.
    A recent survey of veterans by the Pew Research Center (2012) 
revealed that 27 percent of veterans reported that readjustment to 
civilian life was either ``somewhat difficult'' or ``very difficult.'' 
The survey also revealed significant ``burdens of service'' with 48 
percent reporting ``strains in family relations,'' 47 percent 
``frequently feeling irritable or angry,'' 44 percent reporting 
``problems re-entering civilian life,'' and 37 percent reporting 
``post-trauma symptoms.'' Despite the fact that many veterans 
transition from military life with few problems, these data indicate 
that many have difficulty making the shift.
    The Pew data offer insight into the source of the problems as well, 
with emotional and psychological adjustment at the forefront. Among 
those having experienced combat, 50 percent or more report post-trauma 
symptoms and difficult family relations. When queried about factors 
reducing the probability for successful re-entry into civilian life, 
veterans identified traumatic experiences and injury as the most 
significant variables. Of importance for this hearing, veterans 
identified ``attending church at least weekly'' as the most important 
variable associated with an easy and successful re-entry into civilian 
life. A remarkable 67 percent identified attending church ``once a week 
or more'' as making re-entry easier. Clearly, the social connection and 
support offered by religious institutions around the Nation are 
essential for our veterans. The Pew study also reported that churches 
were second only to the military itself as ``institutions'' in which 
veterans have a ``great deal'' or ``quite a lot'' of confidence. 
Clearly, communities of faith offer a unique and critical opportunity 
to connect with veterans transitioning from military life. If aware and 
appropriately trained, clergy can serve a critical role in assisting 
veterans struggling with emotional and psychological symptoms. 
Available data suggest communities of faith as a critical linchpin in 
helping veterans transition to civilian life.
    My own work has helped clarify the severity and magnitude of the 
emotional and psychological issues faced by a particularly large subset 
of the veteran population, student veterans. Nearly two million 
veterans will return home from overseas deployments as part of 
Operation Iraqi Freedom, Operation Enduring Freedom and Operation New 
Dawn. A large number of them will make use of the Post-9/11 GI Bill and 
transition quickly to college and university campuses. My recent study 
of student veterans nationwide revealed that many student veterans 
struggle with psychological symptoms, consistent with the data reported 
in the Pew survey. More specifically, I found that almost 35 percent of 
participants reported suffering ``severe anxiety,'' 24 percent 
experienced ``severe depression'' and 46 percent reported ``significant 
symptoms of post-traumatic stress disorder.'' Somewhat alarming, my 
data indicate that 46 percent reported thoughts of suicide, with 20 
percent having a plan. Further, 10.4 percent reported thinking about 
suicide ``often or very often'' and almost 8 percent reported making an 
attempt, almost six times the frequency of the general student 
population.
    From the limited data available to date, it would appear that 
problems with psychological and emotional adjustment are perhaps the 
single greatest barrier faced by returning veterans transitioning to 
civilian life. Of particular importance for this Committee, two 
community resources offer a unique opportunity to engage and connect 
with veterans, communities of faith and college and university 
campuses. Veterans hold religious institutions in high regard, 
reporting that regular contact and participation help ``ease'' their 
transition, offering critical support and assistance. Similarly, 
college and university campuses are arguably second only to the VA 
itself as institutions where the largest numbers of veterans gather.
    The VA has already expanded efforts to actively collaborate with 
college and universities around the country, including an increase in 
positions allocated to the Vet Success on Campus program and the new VA 
campus grant program funding projects meant to extend services to 
student veterans and extend outreach on campus, with five projects 
funded to date (Veterans Integration to Academic Leadership 
Initiative--VITAL). I would also like to mention and applaud VA efforts 
to explore additional partnerships with colleges and universities. I 
recently participated in a meeting with the Assistant Secretary of the 
VA for Policy and Planning, Dr. Henze, along with a collection of other 
campus leaders to discuss possible collaborations to meet identified 
veteran needs. The VA has been proactive on this front, an effort that 
should be commended.
    Let me emphasize my support for efforts on both fronts; that is, 
working directly with communities of faith around the Nation, along 
with college and university campuses. There is empirical evidence 
indicating a significant need, along with data to suggest these two 
domains offer unique opportunities and promise to help ease the 
transition to civilian life. Training is needed in order for 
communities of faith to effectively respond to the demand. Many clergy 
members are already aware, sensitive to, and equipped to respond to the 
psychological and emotional needs of veterans. Large numbers, however, 
are not. Given the serious nature of the problems identified (e.g. 
suicidality) thoughtful and thorough training is needed. The National 
Center for Veterans Studies would welcome the opportunity to assist in 
any such effort.
    As with communities of faith, many colleges and universities around 
the country are unprepared to meet the psychological and emotional 
needs of student veterans. Although some entities offer training for 
college counseling centers, such as the Department of Defense Center 
for Deployment Psychology, resources are limited. Greater resources are 
needed to meet the growing demand. In response to this need, The 
National Center for Veterans Studies will be launching an effort to 
form a national higher education consortium targeting student veterans. 
We would welcome the chance to partner with any similar efforts around 
the country, including any launched by this Subcommittee.
    Thank you again for the opportunity to address the Subcommittee. 
These issues are critical and the needs of many of our veterans 
transitioning to civilian life are profound. The National Center for 
Veterans Studies is poised to help. I am happy to respond to any and 
all questions.
References:
    Pew Research Center, The Military-Civilian Gap: War and Sacrifice 
in the Post-9/11 Era, January 13, 2012.
    Rudd, M.D., Goulding, J., & Bryan, C.J. (2011). Student veterans: A 
national survey exploring psychological symptoms and suicide risk. 
Professional Psychology: Research & Practice, 42(5), 354-360.

                                 <F-dash>
              Prepared Statement of George Ake III, Ph.D.
    Good afternoon, Chairwoman Buerkle, Ranking Member Michaud, and 
Members of the Subcommittee. I wish to thank you for the opportunity to 
testify on behalf of the 154,000 members and affiliates of the American 
Psychological Association (APA) regarding collaboration between the 
Department of Veterans Affairs (VA) and community organizations to 
support veterans and their families. As a child psychologist at Duke 
University Medical Center and with the National Child Traumatic Stress 
Network, my work focuses on assisting children and families who have 
experienced stressful and traumatic life events, including military 
deployment and its aftermath. I am honored to speak with you today 
about the collaborative work that I and my colleagues are engaged in 
with a variety of partners around the country in support of our 
Nation's military and veteran families.
    Collaboration among all sectors of society is needed to support the 
health and well-being of veterans and their families. This includes key 
partnerships with policymakers, government agencies, universities, the 
health care community, and the faith-based community. Scientific 
evidence continues to identify psychological and neurological 
disorders, including post-traumatic stress disorder (PTSD), depression, 
suicidal ideation, and traumatic brain injury (TBI), as some of the 
signature wounds of the conflicts in Iraq and Afghanistan. While 
psychologists and other health professionals play an essential role in 
helping veterans and families to address these challenges, partnerships 
and collaborations with others sectors of society are also critical.
    Despite a proliferation of programs for Active Duty, National 
Guard, Reserve Component, and veterans and their families, many 
families rely upon the support and counsel of faith-based providers as 
a first point of contact. In some communities, particularly small towns 
and rural areas, faith-based services are more prevalent and accessible 
than health care services. In theatre, on base or post, at the VA, and 
in local communities, veterans and their families not only approach 
faith-based providers on spiritual, religious, and moral issues, but 
also issues of reintegration, spousal relationships, and parenting. 
Chaplains and other faith-based providers can play a key role in 
addressing concerns about stigma related to mental and behavioral 
health services and supports as well as providing linkages and 
referrals to appropriate community and professional resources.
    I would like to express my deep appreciation to you, Chairwoman 
Buerkle, for your leadership in advancing collaboration between the 
mental health and faith-based communities with regard to military and 
veteran families. The unique military and veterans mental health 
workshop that you hosted for faith-based providers in your district in 
December served as a wonderful example of the collaboration and 
partnership that is possible across sectors. I was honored to join the 
distinguished panel of experts that you assembled, including Dr. David 
Rudd of the University of Utah's National Center for Veterans Studies, 
Drs. Judy Hayman and Caitlin Thompson from the VA, Jason Hansman of the 
Iraq and Afghanistan Veterans of America, and Retired Air National 
Guard Chaplain Tim Bejian. Such events help to break down barriers and 
foster partnerships that benefit veterans and their families. 
Replicating this training in other congressional districts could serve 
as a valuable resource.
    The importance of collaboration between military and community 
systems, and among health professionals and faith-based providers, is 
especially important as we consider data from the 2010 Department of 
Defense (DoD) Profile of the Military Community, which estimates that 
44 percent of the 1.4 million Active Duty and National Guard/Reserve 
personnel, who have deployed to combat missions as part of Operation 
Iraqi Freedom (OIF), Operation Enduring Freedom (OEF), and/or Operation 
New Dawn (OND), are parents. This same report noted that there are 
almost 2 million children in the U.S. who have parents in Active Duty 
or Reserve services. Many of these children and families have seen 
their military parents and spouses serve multiple combat deployments to 
Iraq and Afghanistan. A number contend with a parent who returns 
changed due to the wounds of war. Some of these families suffer 
financial hardship, homelessness, marital discord, violence, and other 
difficulties during their reintegration into civilian life. Still other 
families experience the grief and loss associated with their loved 
one's fatal combat injury, or even suicide. Taken together, these 
findings highlight the necessity of considering the context and 
challenges for children and families of veterans returning from combat, 
as well as the role of the family in facilitating a successful 
transition to stateside service or civilian life.
    To support the veteran and strengthen the family, veteran families 
need easy connection to collaborative programs and supports through VA 
medical centers, vet centers, community mental health and faith-based 
services, and professionals from a variety of disciplines, such as 
psychologists, pediatricians, clergy, educators, and case managers who 
are familiar with the military/veteran culture.
    As a member of the National Child Traumatic Stress Network (NCTSN), 
I would like to highlight some of our efforts to support such 
collaboration. The NCTSN is an initiative launched by Congress in 2000 
with the goal of developing a national collaborative network to improve 
best practices and standards of care for children and families affected 
by traumatic stress. Since 2001, the NCTSN, which is administered by 
the Substance Abuse and Mental Health Services Administration, has 
delivered direct services to children and families who have experienced 
all forms of traumatic stress, including our Nation's military 
families. Between 2002 and 2009, NCTSN members reported serving over 
320,000 children through direct clinical services, with many more 
reached through outreach efforts, community educational programs, and 
provider training and consultation. Our work is done in partnership 
with all child-serving systems, including military service branches, 
faith-based organizations, child welfare, and community mental health 
agencies.
    In 2008, the National Center for Child Traumatic Stress (NCCTS), 
the NCTSN coordinating center co-located at Duke University and the 
University of California Los Angeles (UCLA), embarked on a partnership 
with the Center for the Study of Traumatic Stress of the Uniformed 
Services University of the Health Sciences, to expand and enhance the 
level of support provided to military children and their families. 
Other major government partners include the VA, the DoD, and the 
National Guard. Civilian partners include the American Psychological 
Association, the National Association of Social Workers, and other 
community health care providers.
    Of the more than 100 NCTSN funded and affiliate member sites in 40 
States, more than 60 percent serve military children and families. The 
NCTSN Military Families Program brings together high-level experts from 
multiple disciplines (i.e., mental health, military, and public health) 
to address the challenges facing military children, their families, and 
the providers who serve them. The NCTSN has modified interventions to 
meet the unique needs of military families, has conducted outreach to 
them in a variety of settings, and has produced educational and 
informational materials designed especially for their needs. Using Web-
based, interactive media (e.g., podcasts, speakers series, and 
teleconferencing), the NCTSN Military Families Program offers more than 
a dozen educational presentations developed by key experts on 
psychological trauma and military issues. The NCTSN has developed a 
useful curriculum for civilian providers, called Essentials for Those 
Who Care for Military Children and Families, which addresses subjects 
such as military culture, the impact of combat on families, the needs 
of children, programs and services for veterans and National Guard and 
Reserve members and their families, behavioral health services, 
frameworks for interventions, and family violence. Further, we created 
a Web-based Master Speaker Series cosponsored by the NCTSN and Zero to 
Three, which provides an opportunity for leading authorities from the 
VA, DoD, and university settings to discuss military culture, mental 
health issues, resilience, and wellness. In fact, tomorrow, the topic 
of our monthly webinar will be Expanding Services to Veteran Families 
and includes panelists from the VA and Zero to Three. These resources 
are available on the NCTSN Web site.
    In addition to providing evidence-based, trauma-informed treatment, 
the 27 sites of the NCTSN Military Families Program are actively 
engaged in research, community outreach, and partnerships with State 
and local agencies that serve Active Duty military, Guard, Reserve, and 
veterans. My colleagues at Duke University are implementing a Welcome 
Back Veterans program, which is an initiative of the McCormick 
Foundation, Major League Baseball, and the Entertainment Industry 
Foundation. This national program is intended to develop models for 
training community clinicians to offer accessible and effective mental 
health services to military and veteran families in local communities.
    Other colleagues with the Duke Evidence Based Implementation Center 
have been leading quality improvement collaboratives with VA teams. One 
of these collaboratives is based at the Durham VA Medical Center with 
teams focused on improving coordination between mental health services 
and veteran-centered care to improve access to services. The other 
collaborative based out of VISN 6 with Community-Based Outpatient 
Clinic teams focuses on increasing patient access to services and 
enhancing workflow efficiencies.
    Our NCTSN partners at UCLA developed and disseminated a program 
called Families OverComing Under Stress (FOCUS). The FOCUS program is 
designed to enhance the inherent resiliency of military families. The 
program has addressed family adjustment to parental deployment at more 
than 20 U.S. military installations, including Camp Lejeune, for which 
I provided consultation to their resiliency trainers on the 
implementation of FOCUS. The NCTSN has also collaborated with the VA's 
National Center for PTSD to train military and civilian providers on 
acute stress interventions such as Combat Operational Stress First Aid 
that address principles of safety, connectedness, hope, calming, and 
self-efficacy. Our NCTSN and VA colleagues have provided training 
specifically to military chaplains as the training has embedded 
components relevant to the work of clergy working with servicemembers 
and veterans.
    Further, other NCTSN colleagues at Allegheny General Hospital in 
Pennsylvania have partnered with the Tragedy Assistance Program for 
Survivors (TAPS), the National Military Family Association, Zero to 
Three, the Center for the Study of Traumatic Stress, and the Center for 
Health and Health Care in Schools to educate professionals about the 
most appropriate resources for aiding families coping with the death of 
a loved one in the military. Resources from this program have been 
widely disseminated and are available on the NCTSN Web site for faith-
based organizations to use or adapt when working with military and 
veteran families in the aftermath of loss.
    The NCTSN also has a strong program in support of military families 
through the Ambit Network at the University of Minnesota, which has 
developed the ADAPT (After Deployment, Adaptive Parenting Tools) 
program. This groundbreaking initiative specifically meets the needs of 
Reserve Component servicemembers and their families. The 14-week, Web-
enhanced group parenting program addresses key challenges faced by 
deployed parents and their partners, including dealing with the 
transitions of deployment, responding to emotional challenges of 
deployment and reintegration, and enjoying children during stressful 
times. The program is now being tested in a National Institutes of 
Health-funded randomized controlled trial of 400 families with children 
ages 4-12.
    Finally, Catholic Charities of Hawaii, an NCTSN Community Treatment 
Services Center, has reached out to military partners at Tripler Army 
Medical Center and Schofield Barracks to provide training on evidence-
based treatments for children experiencing traumatic stress.
    In conclusion, we have seen that collaborative efforts between 
partners such as chaplains and faith-based providers, mental health 
professionals, physicians, educators, and the military and veterans 
community have resulted in a growing evidence base and increasingly 
high quality services for our military and veteran families. The 
American Psychological Association, Duke University Medical Center, and 
the National Child Traumatic Stress Network all stand ready to continue 
our collaborative efforts with this Subcommittee, the VA and DoD, our 
community-based partners, and the military and veterans community to 
address these important issues.
    Thank you for the opportunity to speak with you today and for your 
leadership and commitment to our Nation's veterans and their families.

                                 <F-dash>
            Prepared Statement of Reverend E. Terri LaVelle
    Chairwoman Buerkle, Ranking Member Michaud, and Members of the 
Subcommittee, thank you for the opportunity to speak about the 
Department of Veterans Affairs (VA) Center for Faith-based and 
Neighborhood Partnerships' (CFBNP) outreach efforts to and with faith-
based and community organizations. As Director of VA's CFBNP since 
September 14, 2009, I have had the opportunity to engage first-hand 
with faith-based, non-profit and community leaders and organizations.
    My testimony today will provide background information on the VA 
CFBNP, the collaborative outreach work the Center has engaged in 
beginning in 2005 with faith-based, non-profit and community leaders 
and organizations, internal VA partners, and the White House Office of 
Faith-based and Neighborhood Partnerships.
Background
    VA's Center for Faith-based and Community Initiatives was 
established on June 1, 2004, by Executive Order 13342. The objective 
was to coordinate agency efforts for the elimination of regulatory, 
contracting, and other programmatic obstacles to enable faith-based and 
community organizations to access resources they need to provide social 
and community services.
    In February 2009, President Obama amended Executive Order 13199 to 
establish the White House Office of Faith-based and Neighborhood 
Partnerships (OFBNP). The name change reflects the emphasis and 
importance of developing and cultivating partnerships, through 
intentional outreach, with those in the community that already provide 
services and meet the needs of so many of our citizens.
    The VA CFBNP is one of thirteen Faith-based and Neighborhood 
Partnerships Centers in the Federal Government.
Mission
    The mission of VA's CFBNP is to develop partnerships with and 
provide relevant information to faith-based and secular organizations 
and expand their participation in VA programs in order to better serve 
the needs of veterans, their families, survivors and caregivers. VA's 
CFBNP cultivates and develops relationships with faith-based and 
secular organizations, working with them as collaborative partners to 
serve our veterans, their families, survivors and caregivers. CFBNP 
outreaches to external partners to expand their understanding of, and 
participation in, VA programs.
Outreach Collaboration
    Since 2005, nationwide, VA CFBNP has conducted pro-active outreach 
events interacting with over 1,200 faith-based, nonprofit and community 
leaders and organizations. The outreach events consisted of 
roundtables, conferences, and workshops.
    Since its inception in 2009, VA's CFBNP has proactively outreached 
to faith-based, nonprofit and community leaders and organizations, 
often collaborating and/or partnering with internal and external 
stakeholders. The internal partners for outreach events include the 
Veterans Benefits Administration (VBA) Vocational Rehabilitation and 
Employment (VR&E) Service, VA Chaplain Service, VA Homeless Program 
Office, National Cemetery Administration (NCA), Veterans Health 
Administration (VHA) Operation Enduring Freedom (OEF) and Operation 
Iraqi Freedom (OIF) Coordinators, and VA's Voluntary Service. The 
Center's external partners include Good Will International; American 
Red Cross; Habitat for Humanity; Salvation Army, USA; State Veterans 
Organizations; and Catholic Charities in Chicago, IL.
Fiscal Year (FY) 2011 and 2012 Internal Outreach Collaborations
    VA CFBNP and VBA VR&E Service have partnered with local VBA 
Regional Offices to co-host Veterans Roundtables with the target 
audience being faith-based, nonprofit and community leaders and 
organizations. Local and regional VA staff serve as panelists and 
roundtable discussion participants. These events provide members of the 
local community an opportunity to meet and interact with VA staff and 
to know their local contacts and resources for assisting veterans. The 
Veterans Roundtables were held in Jackson, MS; Seattle, WA; Newark, NJ; 
Waco, TX; Las Vegas, NV; Cleveland, OH and Louisville, KY. The attendee 
total at the Veterans Roundtables was 450. These VA Regional 
Roundtables have two primary goals:

    <bullet>  To facilitate collaborative working relationships among 
faith-based and secular organizations, VBA, NCA, and VHA so that 
holistic service can be provided to veterans, their families, and 
survivors in the community where the Roundtable is held.
    <bullet>  To inform attendees of the number of veterans in their 
community, what their current needs are, and potential funding 
available to faith-based and secular organizations who can demonstrate 
an ability to meet those needs in collaboration with the VA.

    VA CFBNP is coordinating with VBA to co-host roundtables in FY 2012 
at VBA VR&E Service and Regional Offices in Montgomery, AL; Lincoln, 
NE; Albuquerque, NM; and Boston, MA.
FY 2011 and 2012 External Outreach Collaborations
    The VA CFBNP helped plan and conduct workshops at two outreach 
events with external partners. One was with the State of California 
Department of Veterans Affairs and the California Statewide 
Collaborative for Our Military and Families and held in San Jose. The 
other was the ``Battlemind to Home II'' Symposium conducted with the 
local VA medical center, the Department of Labor and the Military 
Family Research Institute (MFRI) of Purdue University in Indianapolis, 
IN. The number of persons who attended these workshops respectively was 
120 and 95.
    The VA CFBNP participated in five ``Connecting Communities for the 
Common Good'' Conferences in collaboration with the White House OFBNP, 
local officials from the host city, and the Faith-Based and 
Neighborhood Partnership Centers from other Federal agencies. The 
conferences were held in Philadelphia, PA; Detroit, MI; New Orleans, 
LA; Chicago, IL; and Denver, CO.
    In order to support local organizations as they tackle community 
challenges, the regional events have three key goals:

    <bullet>  To build and strengthen relationships between community 
and faith-based groups, and with local, regional and Federal Government 
partners;
    <bullet>  To highlight relevant Federal and public/private 
partnership opportunities, and to connect groups to these 
opportunities; and
    <bullet>  To open the door and tell the story of the Faith-based 
and Neighborhood Partnerships.

    At each ``Connecting Communities for the Common Good'' Conference, 
VA CFBNP moderates a workshop and facilitates a roundtable discussion. 
Each workshop and roundtable consists of local and regional VA staff as 
panelists and roundtable participants. Having local and regional VA 
staff present begins building relationships at the local level between 
VA and the faith-based, nonprofit and community leaders and 
organizations in attendance. The average attendance at each VA CFBNP 
workshop and roundtable discussion was 50 people. The CFBNP reached 
over 300 faith-based, nonprofit and community leaders and 
organizations.
    As the CFBNP Director, I have attended, presented, and conducted 
training on VA programs and services at the following events. These 
outreach events provide information about the needs of our veterans, 
their families, survivors, and caregivers. Information is also 
presented on the opportunities available to faith-based, nonprofit, and 
community leaders and organizations to become collaborative partners 
with VA to meet the needs of veterans, their families, survivors and 
caregivers. Examples of my activities as CFBNP Director include:

    <bullet>  Speaker at the MFRI's November 2011 conference 
``Battlemind to Home II Symposium.'' The goal of the conference was to 
reduce community reintegration barriers for returning servicemembers 
and their families by increasing community knowledge and awareness of 
challenges faced and the supports available from a collaborative 
perspective.
    <bullet>  Participant at the Working Together to Strengthen Guard 
and Reserve Couples and Families Forum sponsored by the Annie E. Casey 
Foundation and the National Healthy Marriage Resource Center. The Forum 
was held in Charlotte, NC, August 15-16, 2011.
    <bullet>  Presenter at the Church of God in Christ (COGIC) AIM 
(Auxiliary in Ministries) Conference held in Houston, TX, August 6-9, 
2011.
    <bullet>  Speaker at the Veterans Roundtable sponsored by the CA 
Collaborative for Military and Families of San Jose, CA, March 23-24, 
2011. This is a collaborative of over 200 faith-based and community 
organizations.
    <bullet>  Keynote speaker at a Douglas Memorial United Methodist 
Church's Pastor's Forum--Veteran Women Resource Center. The Pastor's 
Forum was held in Washington, DC, March 26, 2011.
    <bullet>  Panelist at Forging the Partnerships: DoD/USDA Family 
Resilience Conference held in Chicago, IL, April 27-28, 2011. This was 
a clergy panel with representatives from the National Guard, Air Force, 
Army, Marines and Coast Guard.

    The VA CFBNP will join the White House OFBNP ``Connecting 
Communities for the Common Good'' Conference in several cities 
beginning in March 2012. Center staff is serving on the ``Battlemind to 
Home II'' Symposium 2012 planning team. The CFBNP joins with the local 
VA medical center, the Department of Labor and the Military Family 
Research Institute (MFRI) of Purdue University in Indianapolis, IN, to 
convene and co-host the 2012 Symposium.
Conclusion
    The VA CFBNP increases veterans participation in VA programs 
through outreach to, and partnerships with, faith-based, and community 
organizations. CFBNP collaborates with internal and external partners, 
creates partnerships between government agencies and faith-based and 
community organizations. CFBNP uses outreach events and internal and 
external partnerships to provide VA's program information to faith-
based and community organizations which enables them to inform and 
serve veterans, their families, survivors and caregivers.
    The VA CFBNP is consistently reaching out to, engaging, and 
educating faith-based, nonprofit and community leaders and 
organizations on the role and work of the Center. The Center is open to 
diverse ways for developing collaborative partnerships with faith-
based, nonprofit, and community leaders and organizations that will 
best serve our veterans, their families, survivors and caregivers.
    Madam Chairwoman, this concludes my prepared statement. I am 
prepared to answer your questions at this time.

                                 <F-dash>
           Prepared Statement of Chaplain Michael McCoy, Sr.
    Chairwoman Buerkle, Ranking Member Michaud, and Members of the 
Subcommittee, thank you for the opportunity to speak about the 
Department of Veterans Affairs (VA) Chaplain Service's outreach efforts 
with community- and faith-based organizations. As an Associate Director 
of VA's National Chaplains Center and a past President of the Military 
Chaplains Association of the United States of America, I have had the 
opportunity to engage first-hand with community and faith-based 
organizations.
    My testimony today will provide an overview of three programs: The 
VA National Chaplain Center's Veteran Community Outreach Initiative 
(VCOI); the marriage enrichment retreats; and the ``Heal the Healer'' 
program. VA chaplains have created these initiatives to collaborate and 
build bridges between VA, the faith-based communities, and neighborhood 
leaders to aid in the spiritual care of our returning veterans and 
their families.
VA National Chaplain Center's Veteran Community Outreach Initiative 
        (VCOI)
    In 2007, the VA National Chaplain Center started the VCOI to 
educate community clergy about the spiritual and emotional needs of our 
returning veterans and their families. Nationwide, VA chaplains have 
conducted over 200 training events and provided education to 
approximately 10,000 clergy through this effort. As a result, clergy 
across the Nation are learning to:

    1.  Identify readjustment challenges that veterans and their 
families face following deployment;
    2.  Identify psychological and spiritual effects of war trauma on 
survivors;
    3.  Consider appropriate pastoral care interventions for the 
spiritual and theological issues that veterans and families often 
encounter;
    4.  Brainstorm ideas for a community clergy partnership between VA 
chaplains and local clergy; and
    5.  Refer veterans to local VA health care facilities by being a 
trusted and knowledgeable resource for veterans to use to connect with 
VA.

    In 2011, VA's National Chaplain Center made available to the 
Chaplain Services in VA's 152 medical centers clergy training 
materials, program brochures, curriculum and slides, and DVDs on 
spirituality. These materials were presented to local clergy for use as 
resources to support returning veterans and provide information on 
referring veterans and their family members to local VA medical 
centers, community-based outpatient clinics, Vet Centers, and other 
related resources.
Marriage Enrichment Program
    Our marriage enrichment program began in February of 2009 and was 
initiated by the Chaplain Service at the Charlie Norwood VA Medical 
Center in Augusta, GA. This program was developed based on concerns 
over the large number of stressed marriages experienced by our 
returning veterans; these stresses often led to family crises and 
divorce. For example, in June 2005 an article in the USA Today stated, 
``The number of active-duty soldiers getting divorced has been rising 
sharply with deployments to Afghanistan and Iraq. The trend is severest 
among officers. Last year, 3,325 Army officers' marrages ended in 
divorce--up 78 percent from 2003, the year of the Iraq invasion, and 
more than 3\1/2\ times the number in 2000, before the Afghan operation, 
Army figures show. For enlisted personnel, the 7,152 divorces last year 
were 28 percent more than in 2003 and up 53 percent from 2000. During 
that time, the number of soldiers has changed little.''
    Centered on the theme, ``Getting It Back: Reclaiming Your 
Relationship After Combat Deployment,'' the program is designed so that 
married couples can develop healthy ways of interacting and relating 
with one another. We have discovered that all too often, the spouse who 
has gone to war and returned may have physical, emotional, or spiritual 
wounds that have not yet healed. On the other hand, the spouse who was 
not deployed also needs support, understanding, and relief from the 
stress of trying to maintain some kind of normalcy at home. Family and 
friends mean well as they try to offer support, but they often do not 
understand what the couple is experiencing. This program use material 
from the Practical Application of Intimate Relationship Skills (PAIRS) 
Foundation to help couples address these issues. The program focuses on 
topics such as constructive conflict resolution, emotional literacy, 
and communication and intimacy in stressful situations. Facilitators 
spend an average of 17 hours working with the couples over a 2.5 day 
weekend. Two VA chaplains developed this ministry by using community 
resources and collaborating with local organizations to sponsor these 
programs. The community leaders and faith-based volunteers, 
collaborating with VA chaplains, have contributed in making the 
programs a success. More information, including some best practices for 
the program, is available online at: www.va.gov/chaplain.
Heal the Healer
    In August 2008, VA's National Chaplain Service introduced the 
``Heal the Healer'' program for our returning National Guard and 
Reserve chaplains. Some of these chaplains have served multiple 
deployments. After realizing that several were experiencing trauma from 
their experiences overseas, we developed a program designed to:

    1.  Help those returning from deployment in Operation Enduring 
Freedom/Operation Iraqi Freedom/Operation New Dawn (OEF/OIF/OND) as 
military reserve chaplains be assured that the chaplain community at 
home cares about them and their families;
    2.  Provide chaplains returning from deployment as military reserve 
chaplains in OEF/OIF/OND with the opportunity to share openly their 
experiences and emotions associated with their deployment;
    3.  Meet other chaplains with similar experiences from the theater 
of operations;
    4.  Provide an educational awareness of combat operational stress 
and how to deal with it;
    5.  Build a network for military reserve chaplains who were 
deployed in support of OEF/OIF/OND and a support system upon which they 
may call;
    6.  Provide a realistic review of lessons learned; and
    7.  Gain insight on how we may intervene in the future to provide 
appropriate and timely care for our chaplains returning from combat 
zones.

    The stories and tears that are shared in these sessions reinforce 
the importance of our ongoing role to support the chaplains who have 
worn our Nation's uniform. These men and women have voluntarily placed 
themselves in harm's way to provide the full range of ministry for our 
warriors. In caring for our veterans, they too have changed. Some also 
bear the wounds of war. Chaplains fill a vital role, and we must be 
prepared to help those who assist others in the process of spiritual 
healing. VA chaplains, in partnership with local clergy, our faith 
group endorsers, and community faith group leaders, work together to 
reach out and offer support to returning chaplains and their families.
Conclusion
    In conclusion, these three programs develop community partnerships 
and work with faith-based and community organizations to bring 
attention to the needs of our veterans and their families. Today, we 
understand better the evils and horrors of war that can afflict them. 
We recognize that their service-related experiences can cause deep 
wounds to the spirit, conscience, and soul. Chaplains, community 
clergy, and communities of faith can make a great difference in helping 
to heal our warriors and the families who love them.
    Madam Chairwoman, this concludes my prepared statement. I am 
prepared to answer your questions at this time.

                                 <F-dash>
  Statement for the Record, Consortium for Citizens With Disabilities,
               Veterans, and Military Families Task Force
    Chairwoman Buerkle, Ranking Member Michaud, and other distinguished 
Members of the Subcommittee, thank you for the opportunity to submit 
testimony for the record on behalf of the Consortium for Citizens with 
Disabilities (CCD) Veterans and Military Families Task Force regarding 
efforts to establish meaningful relations between the Department of 
Veterans Affairs (VA) and community organizations to assist disabled 
veterans and their families.
    CCD is a coalition of over 100 national consumer, service provider, 
and professional organizations which advocates on behalf of people with 
disabilities and chronic conditions and their families. The CCD 
Veterans and Military Families Task Force works to bring the disability 
and veterans communities together to address issues that affect 
veterans with disabilities as people with disabilities. Task force 
members include veterans service organizations and broad based 
disability organizations, including organizations that represent 
consumers and service providers.
    Since its creation, the CCD Veterans and Military Families Task 
Force has sought to connect veterans and military service organizations 
with the disability community to allow for cross collaboration and the 
application of lessons learned to new populations of people with 
disabilities. Because of the intersection of the disability and 
veterans communities that occurs when a veteran acquires a significant 
disability, the task force is uniquely suited to bring a holistic 
perspective to issues impacting disabled veterans.
    Many CCD member organizations provide vital services to veterans 
with disabilities that might not otherwise be readily accessible to 
them. These programs complement the wide array of services and supports 
available to our Nation's veterans through VA, but should be viewed as 
supplementary. We believe that disabled veterans must have access to 
needed health care services through the VA health care system, 
including accessible physical and appropriate mental health services, 
as well as long-term services and supports. Specifically, we recognize 
the concerns expressed by the veterans' community in documents such as 
The Independent Budget (IB) about proposals to contract out core 
missions of the VA health care system.
    At the same time, however, the IB acknowledges that veterans will 
always receive health care services through multiple sources but 
recommends that VA retain a role in coordinating that care. The CCD 
Veterans and Military Families Task Force believes that public-private 
partnerships allow VA to effectively augment services available to 
veterans, particular those who live in rural and remote areas. 
Increased development of these partnerships allows VA to go to the 
veteran.
    These partnerships also allow VA to ensure that disabled veterans 
have access to the support models that are widely available in the 
community, but with VA's oversight. For example, community-based 
organizations have developed best practice models to facilitate the 
long-term support needs of people with disabilities. Through 
partnerships with community organizations, the VA can integrate new 
services into the existing VA systems for populations that are 
requiring new types of services, including veterans with significant 
disabilities.
The Need for Community and Faith-Based Organizations
    VA estimates that more than 1 million active-duty personnel will 
join the ranks of America's 22 million veterans during the next 5 
years.\1\ In many cases, these men and women will return home with 
unique challenges that often go unmet despite the enormous effort and 
reach of VA. This Subcommittee has focused on some of these challenges, 
including recent hearings on the suicide rate among veterans and their 
lack of access to mental health services. The U.S. Government 
Accountability Office (GAO) reported \2\ that ``logistical challenges'' 
was one factor that may hinder veterans from accessing mental health 
care. The report cited ``distances to obtain treatment'' as one of the 
barriers, particularly for veterans who live in rural areas. Another 
increasing concern is the homeless problem among women veterans. The 
GAO reported in a December 2011 study \3\ that the number of homeless 
women veterans has doubled in 4 years and found that women veterans 
lacked awareness of VA programs, services, and benefits. A separate 
2011 report \4\ echoed those findings and recommended that solutions to 
address women veterans' transition challenges should be ``informed, 
holistic, collaborative, and community-based.''
---------------------------------------------------------------------------
    \1\ U.S. Department of Veterans Affairs Press Release, February 13, 
2012 (http://www.va.gov/opa/pressrel/pressrelease.cfm?id=2263).
    \2\ U.S. Government Accountability Office, VA Mental Health Report, 
October, 2011 (http://www.gao.gov/new.items/d1212.pdf).
    \3\ U.S. Government Accountability Office, Homeless Women Veterans 
December 2011 Report, (http://www.gao.gov/assets/590/587334.pdf).
    \4\ Joining Forces for Women Veterans Summary Report, Business and 
Professional Women's Foundation, February 2011, (http://
www.bpwfoundation.org/documents/uploads/JFWV_Final_ Summit_Report.pdf).
---------------------------------------------------------------------------
    The unmet needs of current veterans combined with the projected 
rise in the veteran population make leveraging the existing social 
services community to supplement the VA network more critical than 
ever. We believe that no veterans or their families should suffer from 
a lack of access to or understanding of how to navigate reintegration 
services. Many community service providers have the expertise, 
experience, and local capacity to more fully partner with VA through 
its important veterans initiatives.
    Since the issuance of an executive order in 2004,\5\ VA has made 
working with the nongovernmental organizations (NGO), nonprofits, and 
faith-based communities a priority. The objective of the VA's Center 
for Faith Based and Neighborhood Partnerships is to coordinate agency 
efforts for the elimination of regulatory, contracting, and other 
programmatic obstacles that often prevent these organizations from 
providing community-based veterans' services through VA funding and 
contracts. In 2009, VA announced a new NGO Gateway Initiative \6\ to 
``tap the power of communities'' and help NGOs extend services to 
veterans. The VA reiterated its commitment to fostering and expanding 
partnerships with Federal, State, and private sector agencies and 
faith-based and community organizations in its fiscal year 2013 budget 
request to Congress.\7\
---------------------------------------------------------------------------
    \5\ Executive Order 13342 (http://www.gpo.gov/fdsys/pkg/WCPD-2004-
06-07/pdf/WCPD-2004-06-07-Pg980.pdf).
    \6\ U.S. Department of Veterans Affairs Press Release, January 7, 
2009 (http://www1.va.gov/opa/pressrel/pressrelease.cfm?id=1639).
    \7\ U.S. Department of Veterans Affairs Congressional Budget 
Justification (http://www.va.gov/budget/docs/summary/Fy2013_Volume_III-
Benefits_Burial_Dept_Admin.pdf).
---------------------------------------------------------------------------
Examples of Successful VA and Community-Based Organization Partnerships
    Members of the CCD Veterans and Military Families Task Force have 
successfully partnered with VA in certain areas to meet the needs of 
disabled veterans and their families. Below are three examples that 
illustrate the positive impact that VA partnerships with community-
based organizations can have on addressing the issues facing today's 
veterans and their families.
Center for Independent Living Care Coordination
    An example of a successful care coordination model between VA and a 
community-based organization involves the Veteran Directed Home and 
Community-Based Services (VDHCBS) program offered through the Sioux 
Falls VA Medical Center (VAMC). Launched in August 2010, the VAMC 
contracted with the local Minnesota River Area Agency on Aging (MnRAAA) 
to provide case management, fiscal management services, and assessment 
services for veterans seeking to obtain long-term services and supports 
in the community.
    Because of previous outreach efforts by the South WestCenter for 
Independent Living (SWCIL) to the VAMC, National Guard Family 
Assistance Center and other veterans' groups, the MnRAAA program 
managers were familiar with SWCIL and its services to people with 
disabilities in rural Minnesota. The Agency on Aging subcontracted with 
the Center for Independent Living to conduct the actual assessments of 
veterans and provide certain case management services because of the 
CIL's expertise in this arena under its mandate to offer similar 
assistance through the Rehabilitation Act.
    A licensed social worker with SWCIL serves as the liaison with 
nursing staff at the VAMC when a veteran is referred through MnRAAA for 
evaluation for VDHCBS. The SWCIL sends the veteran a packet of 
materials describing the consumer-directed program and schedules a 
follow up visit with the veteran if he/she is interested in VDHCBS. A 
VA nurse determines what services the veteran needs that are available 
through VA and works with the SWCIL social worker to identify 
additional services that must be engaged to fully implement a home and 
community-based care plan. For example, SWCIL has used several other 
community options to obtain services or needed home modifications for 
veterans. The Center for Independent Living receives a one-time fee for 
each assessment and bills for case management under its subcontract 
with MnRAAA. As a result of this project, approximately 18 veterans 
have been successfully enrolled in VDHCBS.
AbilityOne Serves Employment Needs of Veterans
    The AbilityOne program is a Federal initiative to help people who 
are blind or have significant disabilities, including wounded veterans, 
find employment by working for nonprofit agencies (NPAs) that provide 
products and/or services to the U.S. Government. With a national 
network of 600 NPAs, which work through NISH and the National 
Industries for the Blind, and AbilityOne projects in every State of 
the Nation, the AbilityOne program is the largest single source of 
employment for people who are blind or have other significant 
disabilities in the United States. The U.S. AbilityOne Commission is 
the Federal agency authorized to administer the AbilityOne program.
    The AbilityOne program employs over 50,000 people who are blind or 
have significant disabilities, of which 3,300 are veterans and 1,700 
were veterans with disabilities. Through National Industries for the 
Blind and NISH, the AbilityOne program's NPAs also support and employ 
thousands of veterans within their community outside their AbilityOne 
workforce. The AbilityOne program can offer increased community career 
transition support, exploration, and direct training for veterans in 
transition to management opportunities.
    In 2003, VA's Compensated Work Therapy program (CWT) signed an MOU 
with the AbilityOne program as the referral conduit between VA CWT and 
the AbilityOne NPAs to collaborate with VA beneficiaries who have a 
disability. Approximately 2,100 veterans with disabilities have been 
employed since the partnership's inception. The partnership agreement 
promotes local relationships between NPAs and VA CWT offices. This 
allows VA to pre-screen veterans to match AbilityOne job requirements 
and to refer qualified veterans with significant disabilities to 
participate in AbilityOne job coaching programs.
Easter Seals Serves Veterans and Their Families
    Easter Seals has a long-standing record of service to veterans, 
military servicemembers, and their families. Easter Seals expanded its 
mission at the end of World War II to include adult services 
specifically to address the growing number of soldiers returning home 
with disabilities. Recognizing the new and unmet needs of the hundreds 
of thousands of men and women returning from the wars in Iraq and 
Afghanistan, Easter Seals launched its Military and Veterans Initiative 
in 2005 to address serious gaps in service for veterans and military 
families by mobilizing its national community-based provider network. 
Today, Easter Seals touches the lives of America's heroes and their 
families through its more than 70 affiliates across 48 States and its 
network of 24,000 professional staff and 40,000 local volunteers.
    Since the passage of the Veterans Millennium Healthcare Act in 
1999, Easter Seals has worked closely with VA at the national, regional 
and local level to both raise awareness about access to adult day 
services for veterans and to contract locally to provide the direct 
service. In 2010, Congress approved the Caregivers and Veterans Omnibus 
Health Services Act that authorized a range of new services to support 
caregivers of eligible post-9/11 veterans, including the establishment 
of the National Veteran Caregiver Training program. In April of 2011, 
VA contracted with Easter Seals for its caregiving expertise in working 
with individuals with serious disabilities to develop and provide the 
training. Easter Seals operates the VA caregiver contract with Atlas 
Research, a veteran-owned small business, and three of the country's 
leading caregiving organizations: the National Alliance on Caregiving, 
the National Family Caregiver Association, and the Family Caregiver 
Alliance. Easter Seals and its partners offer in-person, Web-based and 
self-study caregiver training through the contract to family members of 
seriously injured, post-9/11 veterans who receive their care at home 
and are eligible under VA program guidelines. The training includes 
topics on caregiver self-care, home safety, caregiver skills, veteran 
personal care, managing difficult behaviors and support resources.
    Easter Seals' experience with VA has been very positive throughout 
the implementation of the caregiver contract. Under the contract 
management and direction of VA, Easter Seals and its partners have met 
the targets and exceeded expectations. Feedback has been overwhelmingly 
positive, including from a mother of a seriously injured veteran who 
wrote: ``Thank you for re-inspiring us and for all you continue to do 
to be a part of healing American heroes.''
Recommendations for Expanding Partnership Success
    The CCD Veterans and Military Families Task Force believes that 
these examples of successful partnerships between VA and community-
based organizations clearly support our position for increased 
collaboration. Specifically, we believe that there are opportunities to 
foster additional collaboration to meet the needs of disabled veterans 
living in their communities. Consequently, VA should expand community-
based, supportive services models (similar to the Supportive Services 
for Veteran Families program) that leverage the existing social service 
network to help assist VA in achieving its goals.
    As an example, veterans with disabilities often need assistance 
obtaining appropriate community-based services to allow them to live 
and work independently in the community. Navigating the many different 
services for people with disabilities and veterans, such as health 
benefits, transportation, and vocational rehabilitation services, can 
be complex. Organizations like the Protection and Advocacy agencies 
located in every State and territory have expertise and experience 
navigating these programs and often advocate for veterans with 
disabilities to receive appropriate services from community-based and 
faith-based organizations.
    For instance, the New York Commission on Quality of Care and 
Advocacy for People with Disabilities has been working with the New 
York State Department of Health to create an advisory board of veterans 
to address the need of veterans to receive community-based health care 
services, and to help monitor the services that veterans receive. 
Disability Rights California holds weekly training and information 
sessions for veterans in the San Diego area to provide them information 
and assistance obtaining community-based services. Protection and 
Advocacy agencies are eager to work with VA to ensure veterans with 
disabilities receive the services and supports necessary to live and 
work in the community.
    The National Disability Rights Network (NDRN), a CCD member 
organization, is available to assist with coordinating collaboration 
efforts between VA and the Protection and Advocacy Network. The CCD 
Veterans and Military Families Task Force encourages VA to work with 
the Protection and Advocacy agencies, NDRN, and other organizations to 
provide these unique advocacy services to veterans with disabilities.
    We commend VA's NGO Gateway Initiative aimed at helping qualified 
nonprofits who are interested in assisting VA in a variety of service 
areas and VA's establishment of a dedicated liaison in the Office of 
the Secretary to support VA/NGO information sharing and collaboration. 
However, VA should elevate the profile of this initiative and include 
readily available guidance on the VA Web site regarding how interested 
organizations would receive assistance through this initiative. We 
believe that organizations interested in partnering with VA, must be 
able to easily relay their interest and abilities to VA.
    The ability to augment VA services by linking VA with established 
community and faith-based organizations represents an opportunity to 
greatly increase access to a variety of services needed for veterans 
with disabilities and their families in transitioning to and remaining 
active members of their communities. The need to expand access to 
services, particularly for veterans in rural and remote areas, shows 
the need to increase collaboration to meet the concerns of today's 
veterans with disabilities. Qualified community and faith-based 
organizations represent a clear pathway to augmenting VA services for 
our Nation's veterans.
    Thank you for the opportunity to submit testimony regarding the 
views of the CCD Veterans and Military Families Task Force concerning 
collaboration between VA and community-based organizations. We 
encourage the Subcommittee to continue its exploration of this topic 
and commend your leadership on behalf of our Nation's veterans with 
disabilities. We are ready to work in partnership to ensure that all 
veterans are able to reintegrate in to their communities and remain 
valued, contributing members of society.
    Information Required by Clause 2(g) of Rule XI of the House of 
                            Representatives
    Heather Ansley, Esq., MSW
    Vice President of Veterans Policy
    VetsFirst, a program of United Spinal Association
    1660 L St., NW, Suite 504
    Washington, DC 20036
    (202) 556-2076 Ext. 7702
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91f9f0ffe2fdf4e8d1e7f4e5e2f7f8e3e2e5bffee3f6">[email&#160;protected]</a>

    Susan Prokop
    Associate Advocacy Director
    Paralyzed Veterans of America
    801 18th St., NW
    Washington, DC 20006
    (202) 416-7707
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c7b4b2b4a6a9b787b7b1a6e9a8b5a0">[email&#160;protected]</a>

    Leonard Selfon, J.D., CAE
    Associate General Counsel
    Paralyzed Veterans of America
    801 18th St., NW
    Washington, DC 20006
    (202) 416-7629
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="84e8e1eaf7c4f4f2e5aaebf6e3">[email&#160;protected]</a>

Receipt of Federal grants or contracts:

    The Consortium for Citizens with Disabilities Veterans and Military 
Families Task Force has not received any Federal grants or contracts 
during the current or two preceding fiscal years.
                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:
   Questions from Hon. Michael H. Michaud, Ranking Democratic Member,
         Subcommittee on Health, Committee on Veterans' Affairs
               to Honorable Eric K. Shinseki, Secretary,
                  U.S. Department of Veterans Affairs
                           February 29, 2012

Honorable Eric K. Shinseki
Secretary
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Secretary Shinseki:

    In reference to our Subcommittee on Health hearing entitled, 
``Building Bridges Between VA and Community Organizations to Support 
Veterans and Families,'' that took place on February 27, 2012, I would 
appreciate it if you could answer the enclosed hearing questions by the 
close of business on Wednesday, April 11, 2012.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Jian Zapata at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d77747c7333677c6d7c697c5d707c7471337572686e78337a726b">[email&#160;protected]</a>, and fax your responses to 
Jian at 202-225-2034. If you have any questions, please call 202-225-
9756.

            Sincerely,

                                                 Michael H. Michaud
                                          Ranking Democratic Member
                                             Subcommittee on Health

CW/jz

                                 ______
                                 

                   Questions for the Record from the
      House Committee on Veterans' Affairs Subcommittee on Health
                           February 27, 2012
 Hearing on Building Bridges Between VA and Community Organizations to 
                     Support Veterans and Families

Question for Rev. E. Terri LaVelle, Director, VA Center for Faith-based 
        and Neighborhood Partnerships

1.  What is being done to specifically address the support needs of 
servicemembers and veterans that reside in rural or underserved areas?

Questions for Chaplain Michael McCoy, Associate Director, National 
        Chaplain Center

1.  Within the 200 training events that the National Chaplain Center 
has conducted, how many clinics have been included in this outreach?

2.  How is the National Chaplain Center measuring success in terms of 
outreach and training?
            Responses from Hon. Eric K. Shinseki, Secretary,
                  U.S. Department of Veterans Affairs
      to Honorable Michael H. Michaud, Ranking Democratic Member,
         Subcommittee on Health, Committee on Veterans' Affairs
                           February 27, 2012
 Hearing on Building Bridges Between VA and Community Organizations to 
                     Support Veterans and Families

Question for Rev. E. Terri LaVelle, Director, VA Center for Faith-based 
        and Neighborhood Partnerships (CFBNP)

Question 1: What is being done to specifically address the support 
needs of servicemembers and veterans that reside in rural or 
underserved areas?

Response:

    The VA CFBNP hosts quarterly conference calls for members of the 
Center's listserv. The quarterly conference call provides listserv 
members with updates on the work of VA's CFBNP especially focusing on 
sharing the Center's collaborative efforts with internal and external 
stakeholders working with or on behalf of veterans. The call also 
provides updates on VA programs and services that will assist listserv 
members in serving the needs of veterans, their families, survivors, 
and caregivers.
    Some members of the listserv represent and or work with 
organizations that provide services to veterans in rural communities.
    Realizing the need to provide additional information to those 
serving veterans in rural communities, the Center's final call for FY 
2011 provided information on a collaborative community program for 
veterans and clergy living and working in rural communities.
    For the September 15, 2011 quarterly conference call, the speaker 
was Rev. Steve Sullivan, Chaplain Arkansas VA Medical Center and 
Director of the VA/Clergy Partnership for Rural Veterans. Chaplain 
Sullivan shared information about Project South (Serving Our Units at 
Home). Chaplain Sullivan shared how Project South came into existence, 
how to effectively engage and work with local clergy and ways to reach 
the veterans and their families.
    Project SOUTH is an inter-denominational cooperative effort between 
local churches, the National Guard and U.S. Army Reserve local units, 
and the Arkansas Veterans Affairs to provide basic support and care for 
local soldiers and National Guardsmen who are preparing to be or are 
already deployed, and to their families. Project SOUTH works with faith 
leaders in El Dorado, Arkansas and other surrounding rural communities.
    The VA CFBNP co-hosts four regional Veterans Roundtables annually 
with Veterans Benefits Administration (VBA) Vocational Rehabilitation 
and Employment (VR&E) Service and the VR&E Regional Office (RO) of the 
host city.
    In previous Veterans Roundtables, it became apparent that 
information and training programs must be taken to where the needs are; 
one place is to our rural communities. Rural communities often lack 
adequate transportation and other resources to get meaningful numbers 
of participants to such event.
    One of the VA Veterans Roundtables for FY 2012 will be held in a 
rural community.
    The VA Veterans Roundtable has two primary goals; the first is to 
facilitate collaborative working relationships among faith-based and 
secular organizations working in the host city and with Veterans 
Benefits Administration, National Cemetery Administration, and Veterans 
Health Administration so that holistic services can be provided to 
veterans, their families, survivors, and caregivers.
    The second goal is to inform attendees of the number of veterans in 
their community, what their current needs are, and potential funding 
available to faith-based and secular organizations who can demonstrate 
an ability to meet those needs in collaboration with the VA.
    To strengthen and expand the CFBNP support to rural veterans, the 
Director of the CFBNP met with the Director of Veterans Health 
Administration's (VHA) Office of Rural Health on March 22, 2012. They 
discussed VHA rural health needs and how VA's CFBNP an assist veterans 
by working with faith-based and community leaders in rural communities. 
The next step is for VA's CFBNP to work in collaboration with VA's 
Community-Based Outpatient Clinics (CBOCs). Together, these 
``networks'' can directly inform and assist rural veterans to secure 
services they may need.

Questions for Chaplain Michael McCoy, Associate Director, National 
        Chaplain Center

Question 1: Within the 200 training events that the National Chaplain 
Center has conducted, how many clinics have been included in this 
outreach?

Response:

    The majority of the 233 Veterans Community Outreach Initiative 
(VCOI) programs have been hosted at or near VA medical centers. 
Outpatient clinical program personnel are invited to participate in the 
day-long clergy training events. The Rural Clergy Training program, 
cosponsored by the VA National Chaplain Center and the VA Office of 
Rural Health, is an initiative to create Best Practices in training 
rural clergy in very rural settings. The eight Rural Clergy Training 
events planned for 2012 (listed below), will be held near VA CBOCs. We 
anticipate that VA clinic personnel, as well as VA Mobile Vet Center 
staff personnel will participate.

    Elizabeth City, NC--March 6, 2012
    Danville, VA--March 8, 2012
    Staunton, Virginia;
    Beckley, West Virginia;
    Carrolton, Kentucky;
    Richmond, Kentucky;
    Rogersville, Tennessee; and
    Cookeville, Tennessee.

    The five objectives of these Rural Clergy Training events are for 
VA Chaplains to:

    1.  Train rural clergy to recognize the holistic needs of veterans 
and their families;
    2.  Train rural clergy to be able to respond sensitively to the 
needs of returning rural veterans;
    3.  Train rural clergy to be equipped to make referrals to VA 
facilities;
    4.  Encourage rural clergy to establish ministry programs 
specifically for veterans living in rural communities; and
    5.  Encourage rural clergy to use their influence in the community 
to help reduce the stigma attached to mental health issues.

Question 2: How is the National Chaplain Center measuring success in 
terms of outreach and training?

Response:

    We are developing practices and measurement tools for the Rural 
Health Clergy Training Project that will assist local clergy and 
Veterans Service Organizations representatives to identify problems of 
returning veterans. These tools will aid veterans in receiving the 
appropriate assistance in rural communities. Outcome evaluation is 
designed in a pre/post framework and is based on three measures: (1) 
before training, (2) immediately after training, and (3) at yet-to-be-
determined periods (potentially 3 months, 6 months, and 12 months) 
after training. There are seven discrete measures related to outcomes, 
all related to expanded services in local communities.
    We continue to improve the outcome evaluation tools by developing 
best practices and measurement devices that can be utilized at VCOI 
events. Some specific questions among the 33-question evaluation forms 
distributed following each of the training events are: How many 
referrals have you made to a Veterans Affairs facility in the past 12 
months? If you have made a referral to a Veterans Affairs facility, how 
would you rate your satisfaction with the experience? How many 
referrals have you made to a community mental health facility in the 
past 12 months? In your ministry, do you ever interact with: Veterans 
Affairs Chaplains? Do you ever interact with Veterans Affairs Mental 
Health Providers? Have you spoken about military/veteran needs from the 
pulpit?

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
